  REDACTED AND UNCLASSIFIED




THE FEDERAL BUREAU OF
   INVESTIGATION’S
 EFFORTS TO PROTECT
THE NATION’S SEAPORTS

  U.S. Department of Justice
Office of the Inspector General
         Audit Division

     Audit Report 06-26
        March 2006




  REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED


       THE FEDERAL BUREAU OF INVESTIGATION'S
                 EFFORTS TO PROTECT
               THE NATION'S SEAPORTS


                       Executive Summary
        The nation's seaports and related maritime activities are widely
recognized as being vulnerable to acts of terrorism. The consequences
of a maritime-based terrorist attack are potentially devastating to both
the economy and to public safety. The United States has more than
360 seaports, and 95 percent of overseas trade flows through these
ports or inland waterways. Further, seaports are often located near
major population centers and hazardous fuel or chemical storage
facilities that may provide attractive terrorist targets. According to the
National Commission on Terrorist Attacks Upon the United States
(9/11Commission), the risk of maritime terrorism is equa t to or
greater than the risk of terrorism involving civilian aviation. Although
the United States has placed much attention on better securing civilian
aviation since 2001, seaports remain largely at risk.

      The protection of U.S. seaports is a shared responsibility among
the Department of Homeland Security's (DHS) U.S. Coast Guard and
U.S. Customs and Border Protection (CBP), and the Federal Bureau of
Investigation (FBI). The Coast Guard has primary responsibility for
the physical protection of the nation's seaports, and it has law
enforcement authority in the maritime domain. CBP enforces import
and export laws and regulations and bears primary responsibility for
cargo inspections a t seaports. The FBI, as the lead federal agency for
preventing and investigating terrorism, has an overarching role in
helping to secure the nation's seaports. The FBI's responsibilities are
part intelligence and part law enforcement, including assessing the
threat of maritime-based terrorism; gathering, analyzing, and sharing
information on maritime threats; and maintaining well-prepared
tactical capabilities to prevent or respond to maritime- based terrorism.
Unless incident command and other coordination issues are resolved in
advance and response scenarios are exercised, the overlapping nature
of the FBI's and the Coast Guard's responsibilities in the maritime
domain may result in confusion and interagency conflict with the FBI in
the event of a maritime incident. CBP's more discrete responsibilities
do not present as much likelihood for conf ict.



                     REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

      A 1979 memorandum of understanding (MOU) between the FBI
and the Coast Guard acknowledges their overlapping jurisdiction and
the need for cooperation and coordination in the maritime domain.
After the September 11 terrorist attacks, the Maritime Transportation
Security Act of 2002 increased the Coast Guard's responsibility in
maritime terrorism prevention and response. I n addition, the National
Strategy for Maritime Security, developed by an interagency
committee and issued in September 2005, attempts t o align federal
government maritime security programs into a comprehensive national
effort involving federal, state, local, and private sector entities. Eight
plans support the National Strategy for Maritime Security. One of the
plans is the Maritime Operational Threat Response (MOTR) plan, which
was issued in October 2005. The MOTR describes the U.S.
government's plan to respond t o terrorist threats in the maritime
domain, including the roles of various federal agencies, protocols for
lead and supporting agencies, and the need for additional planning.
The MOTR assigned the DHS, implemented through the Coast Guard,
lead agency responsibility for interdicting maritime threats where it
operates and assigned the Department of Justice (DOJ), through the
FBI, lead agency responsibility for investigating maritime threats and
incidents. However, both the FBI and the Coast Guard have
jurisdiction to interdict maritime threats, and the MOTR did not resolve
potential conflict between the two agencies in incident command and
response.

      The DOJ Office of the Inspector General (OIG) initiated this audit
to examine the FBI's seaport security efforts. We reviewed the FBI's
roles and responsibilities for preventing and responding to terrorist
attacks in the maritime domain, and the extent and effectiveness of
the FBI's interagency coordination and cooperation. To accomplish
these overall objectives, we examined the FBI's: (1) initiatives to
prevent maritime terrorism, including coordination with the Coast
Guard and other agencies; (2) capability to respond to maritime
incidents; and (3) efforts to assess the maritime terrorism threat.

      Our audit found that over the past 3 years the FBI has taken
steps to enhance its capability to identify, prevent, and respond to
terrorist attacks in the maritime domain, including seaports. Among
the positive steps the FBI has taken to enhance seaport and maritime
security are:



                                       ..
                                   -   II   -

                     REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

      w   creating Maritime Liaison Agents ( M I A ) at FBI field offices and
          assigning these agents responsibility for coordinating with the
          FBI's maritime partners, including the Coast Guard and CBP;

          establishing a Maritime Security Program a t FBI headquarters
          to oversee the MLAs and centralize the FBI's maritime efforts;

          improving the FBI's ability to respond to a maritime terrorism
          threat or incident, including creating enhanced maritime
          Special Weapons and Tactics (SWAT) teams located in the
          field offices closest t o the Coast Guard's counterterrorism
          response teams;

          providing maritime-related intelligence to other intelligence
          and law enforcement agencies; and

          establishing a database, the Guardian Threat Tracking
          System, to collect information on terrorist threats and
          suspicious incidents a t seaports and elsewhere and manage
          follow-up action on these threats and incidents.

     However, we believe the FBI needs to take additional steps to
improve its capability t o deal with the threat of maritime terrorism by:

          resolving potential incident command, coordination, and
          response issues that could arise from confusion about the
          respective roles of the FBI and the Coast Guard;

          improving the collection and dissemination of lessons learned
          and best practices from maritime counterterrorism exercises;

          allocating FBI resources according to the threat and risk of
          maritime terrorism relative to other threats against other
          critical infrastructures such as aviation;

          ensuring that all FBI field offices use the Guardian database
          t o enter and maintain data on threats and suspicious
          incidents at seaports and elsewhere; and

          improving maritime-related intelligence gathering and
          dissemination.



                                    - iii   -
                      REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED

Maritime Initiatives

       The FBI established its MLA program in 2004 as a result of a
joint FBI and Coast Guard investigation into the threat posed by divers
and combat swimmers. MLAs are assigned to most of the FBI's 56
field offices and are the most visible and active FBI resource dedicated
to preventing maritime terrorism. There are 73 MLAs, about two-
thirds of whom are FBI agents and one-third are other agency
personnel assigned to the FBI's Joint Terrorism Task Forces. MLAs are
primarily responsible for coordinating with other entities who share
responsibility for security a t the nation's ports, thereby facilitating the
sharing of information on threats and security measures. According to
FBI Counterterrorism Division (CTD) managers, M LAs should be
maritime experts with the knowledge and relationships to significantly
assist the FBI in resolving any terrorist threat or event that may occur
at local seaports.

       However, we found that the FBI does not always assign MLAs
according to the threat and risk of a terrorist attack on a given
seaport. An analysis performed by the DHS for its Port Security Grant
program suggests that 24 FBI field offices are responsible for helping
protect over 80 percent of the seaports facing the greatest risk of a
terrorist attack. But because the FBI assigns MLAs without assessing
the threat and risk of terrorists attacking or using a particular seaport
for an attack, MLAs are not necessarily assigned to the most critical
ports. Instead, we found that FBI field offices with multiple vital ports
may have only one MLA, while other FBI field offices with only minor
maritime activity may have multiple MLAs. For example, one FBI field
office has six significant ports in its territory but only one MLA. I n
contrast, another FBI field office has no strategic ports in its area but
five MLAs. Furthermore, the FBI does not track the amount of time
MIAs or other agents or analysts spend on maritime terrorism. Such
tracking would help the FBI determine where its maritime activity is
occurring, how much time is being spent on specific activities such as
interagency training or coordination with Coast Guard-sponsored Area
Maritime Security Committees (AMSC), and where additional resources
should be deployed.'



         AMSCs, mandated by the Maritime Transportation Security Act, are
comprised of federal, state, and local agencies as well as representatives of the
shipping and port communities. Each committee is charged with assessing its port's
vulnerabilities and developing plans to meet security requirements.




                       REDACTED AND UNCIASSIFIED
                    REDACTED AND UNCLASSIFIED

        I n July 2005, during the course of our audit, the CTD created a
Maritime Security Program, which now has responsibility for the MLA
program. The Maritime Security Program is intended to be the focal
point for the FBI's maritime efforts, including carrying out the FBI's
responsibilities under the National Strategy for Maritime Security and
the strategy's eight implementing plans. Because the Maritime
Security Program is a recent initiative, we could not fully assess its
impact. It has, however, already changed the MLA program by asking
all field offices with MLAs to name an FBI special agent as the field
office's lead MLA. I n addition, the Maritime Security Program plans to
visit 30 percent of the nation's major transportation hubs,
metropolitan areas with both a major seaport and major airport. The
purpose of the visits is t o learn about the vulnerabilities of seaports,
the activities of the MLAs, how to improve guidance to the MIAs, and
how to better focus the Maritime Security Program. We view this as
an indication that the FBI is beginning to consider the threat and risk
of maritime terrorism in conducting its Maritime Security Program.

       The Maritime Security Program has also announced 13 objectives
for fiscal year (FY) 2006, many of which we believe will be beneficial
and help focus the FBI's efforts a t preventing maritime terrorism.
However, we are concerned that these objectives are not described in
a way that will allow the program to assess progress toward meeting
its goals. I n addition, the objectives do not include critical needs such
as maritime threat assessments and the identification of informants
who can provide information on maritime threats.

Maritime Response Capabilities

      The response to terrorist threats or incidents in the maritime
domain presents unique challenges to the FBI and other responders.
The FBI has several tactical assault options for maritime situations and
also the capability to deal with maritime-based weapons of mass
destruction (WMD) through :

         field office SWAT teams, including 14 teams with some
         additional maritime training;

         the Hostage Rescue Team (HRT), which has specialized
         training and equipment and is able t o assault and take control
         of a ship whether it is docked or underway; and



                                   -v -

                     REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

         the Hazardous Devices Response Unit, with capabilities to
         deal with terrorist attacks using chemical, biological,
         radiological, or nuclear weapons - including a WMO aboard a
         ship.

      The Coast Guard has significant responsibilities for enforcing
laws in the maritime domain, a role that received an added
counterterrorism component with the passage of the Maritime
Transportation Security Act in 2002. This Act required the Coast
Guard to create Maritime Safety and Security Teams (MSST) capable
of rapidly responding to threats of maritime terrorism. The
Coast Guard has 13 MSSTs nation-wide. At the same time, the FBI
created enhanced maritime SWAT teams to enable it to work better
with the Coast Guard's MSSTs. Nearly all of the FBI's teams are
located in the FBI field office closest to an MSST.

Overlapping Responsibilities

       Officials at the FBI and the Coast Guard agreed that the Maritime
Transportation Security Act created overlapping responsibilities
between the agencies. This overlap has the potential to confuse the
respective responses of the FBI and the Coast Guard to a maritime-
based terrorism incident. For example, the FBI officials with whom we
spoke were unsure of MSST capabilities and were concerned that these
Coast Guard tactical teams might duplicate the FBI's HRT and SWAT
teams. Based on our discussions with FBI personnel, we believe the
HRT has unique capabilities to board, assault, and take control of a
ship whether it is docked or underway. Prior to the release of the
Maritime Operational Threat Response plan, officials from both the FBI
and the Coast Guard agreed that the MOTR should resolve
jurisdictional issues. However, the MOTR issued in October 2005 is an
 interim plan, which FBI officials say does not clearly delineate the
 respective roles of the Coast Guard and the FBI. In our opinion, a lack
of jurisdictional clarity in the MOTR could hinder the ability of the FBI
and the Coast Guard to coordinate an effective response to a terrorist
threat or incident in the maritime domain. Specifically, we are
concerned about how confusion over authorities will affect the two
agencies' ability to establish a clear and effective incident command
 structure. While a final MOTR plan may resolve the problem of
overlapping roles, we believe the FBI should propose an MOU to the
 Coast Guard and conduct joint exercises with the Coast Guard to
 resolve any coordination or incident command issues.




                    REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

       Compared to the FBI-Coast Guard relationship, the relationship
between the FBI and CBP is better defined given the more distinctive
roles of each agency. The FBI, for example, does not have a direct
role in cargo inspection. Consequently, the coordination required
between the two agencies centers on intelligence sharing and
notification in the event of a threat or incident.

Lesson Learned

       Exercises, whether operational or incident command exercises,
can provide valuable lessons and identify best practices for improving
future response capabilities. FBI policy requires the preparation and
dissemination of after-action reports following exercises and major
operations. However, the FBI was unable to provide after-action
reports for most maritime exercises, and we concluded that reports
were not prepared for all exercises. During FYs 2002 through 2005,
the FBI prepared reports for 6 of 19 maritime-related exercises or
incidents. Most of these six involved interagency exercises with the
Coast Guard and other elements of the DHS, such as CBP. W e
reviewed the FBI's after-action reports and found that most raised
concerns about interagency incident response in the following areas:
communication, adequacy or coordination of resources, command and
control coordination, and jurisdiction or authority. According to an
acting unit chief in the FBI's Critical Incident Response Group, the FBI
has not systematically reviewed these after-action reports to identify
and disseminate the lessons learned from these exercises. Due to the
critical need for the FBI to resolve any jurisdictional, communications,
or incident command and response issues, we believe the FBI should
prepare after-action reports and take action on the lessons learned
from all interagency and FBI maritime terrorism exercises.

Scope of the Maritime Threat

       The FBI faces a difficult challenge in trying t o cover all likely
terrorist tactics and targets given the many types of infrastructure in
the United States and the huge number of potential targets. Although
the FBI has conducted general terrorist threat assessments, it has
neither conducted nor reviewed a threat assessment that indicates
where seaports and the maritime domain rank among the tactics and
likely targets of terrorists. Assessing the maritime threat would be
useful not only to define the nature, likelihood, and severity of the
threat compared to other threats but also t o allow F 8 I managers and
others to make informed decisions a bout resource allocation.



                    REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED


      In reviewing the FBI's maritime-related intelligence reports over
the 4 years since the 9/11 terrorist attacks, we found that the FBI
tended to focus on just two potential tactics: attacks by scuba divers
or combat swimmers and infiltration of the United States by various
maritime methods. We are concerned that the FBI may not be
devoting its intelligence resources to assessing high-risk maritime
areas. For example, although terrorists have indicated a strong desire
to use a WMD and vessels can be used to transport a WMD for
detonation in a port or elsewhere, none of the FBI's intelligence
reports assessed the threat and risk of terrorists smuggling a WMD in
a shipping container aboard a cargo ship.

         The FBI's Directorate of Intelligence establishes requirements
for meeting the FBI's intelligence needs but does not follow up to
ensure that the FBI's operational divisions and field offices are working
to address these requirements concerning maritime or other threats.
Therefore, intelligence questions a bout terrorists' maritime intentions
and plans may go unanswered. Further, the FBI does not correlate its
list of intelligence requirements with its intelligence reports. This lack
of linkage hampers the FBI from readily identifying those intelligence
reports that answer intelligence questions about maritime terrorism.
Consequently, the FBI might have intelligence about maritime
terrorism that is not easily located within the intelligence reports.
However, we found that the Directorate of Intelligence is aware of
these shortcomings and has several initiatives ongoing to ensure that
the FBI addresses its intelligence-gathering requirements in the
maritime domain and other areas.

       The FBI: has not collected complete data on the number of
suspicious activities or terrorist threats involving seaports. However,
using a database called the Guardian Threat Tracking System
(Guardian), the FBI appears to be making significant progress in
identifying, tracking, and internally sharing information on maritime
and other terrorist threats and suspicious incidents. However,
Guardian cannot be easily searched t o identify trends in maritime-
related suspicious activities or threats, and the FBI has not ensured
that FBI offices comply with directives concerning the use of Guardian
and the need to document the resolution of all incidents entered in
Guardian. The number of Guardian entries varies greatly by field
office, with two field offices accounting for 2 1 percent of the entries
made by field offices. Also, as of August 2005, Guardian contained
about 6,000 entries that showed no outcome of any follow-up or

                                  - viii   -
                     REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

investigation. According to FBI officials, a new version of Guardian,
scheduled to be deployed in March 2006, will enhance the FBI's ability
to search the database for maritime-related incidents. But the success
of Guardian and the FBI's ability to identify trends in suspicious
incidents, including maritime-related incidents, is highly dependent on
field agents using the system as required.

       Through our review of the FBI's maritime-related intelligence
reports, we identified useful initiatives a t the FBI's Chicago, Newark,
and Seattle field offices. Chicago and Newark issue intelligence
bulletins discussing maritime-related incidents to other federal, state,
and local law enforcement agencies. A Seattle intelligence assessment
used a weighted ranking system to evaluate whether a given
maritime-related suspicious incident was indicative of pre-operational
planning for a terrorist attack. We believe that the FBI should consider
making greater use of these initiatives.

Conclusions and Recommendations

       The FBI faces a difficult task in protecting the nation from all
potential terrorist targets and methods, and seaports are just one type
of critical infrastructure that requires protection. Yet due t o the
vulnerability of seaports and maritime activities to a terrorist attack,
the FBI has a responsibility to not only provide the resources needed
to ensure an adequate response capability and intelligence gathering
and sharing, but also to contribute to an effective, coordinated
government response to any maritime-related terrorist threat. The
FBI recognizes the general threat of maritime- based terrorism due to
the inherent vulnerability of seaports, and it has established a
Maritime Security Program, assigned MLAs to many FBI field offices to
coordinate with other agencies involved in securing the nation's
seaports (although the FBI should ensure that MIAs are assigned to
the higher-risk locations), participates in Coast Guard-sponsored
AMSCs, and has trained and equipped tactical assault forces and
hazardous materials experts that can operate in the maritime domain.

       To ensure an effective federal government response to maritime
terrorism, the overlapping responsibilities, jurisdictions, and
capabilities of the FBI and the Coast Guard need to be sorted out
before an incident occurs and not during an incident. Unfortunately,
the MTSA and the MOTR plan have not eliminated the potential for
interagency conflict and confusion in the event of a terrorist incident a t
a seaport or elsewhere in the maritime domain. The shared



                     REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

responsibility among the FBI, Coast Guard, and to a lesser extent CBP,
to ensure the safety of U.S. seaports requires the FBI to update the
1979 MOU or otherwise come to agreement with the Coast Guard on
each agency's respective roles and authorities.

      Once such agreement is reached on incident command and
related issues, the FBI should emphasize leading or participating in
more interagency maritime-related exercises involving likely terrorism
scenarios. Such exercises are important to identify and resolve any
problems or misunderstandings over jurisdiction, incident command,
communications, tactical operations, or other matters that might
impede the swift and effective resolution of a maritime terrorist
incident. I n addition, the FBI should ensure that it gleans lessons
learned and best practices from all interagency maritime-related
exercises to help resolve any disputes, confusion, or communications
problems and improve its response capabilities.

       The FBI has not specifically assessed the threat and risk of
terrorism a t U.S. seaports, although it is addressing aspects of seaport
security in its intelligence gathering and reporting activities. However,
in addition to assessing the threat and risk of maritime-based
terrorism, the FBI's Directorate of Intelligence should better track how
the FBI's field offices are addressing the FBI's intelligence collection
requirements pertaining to seaport security. The FBI is in the process
of enhancing the search capabilities of its Guardian threat-monitoring
database used to identify and track threats and suspicious activities,
including those a t seaports. However, the FBI needs to ensure that
the database is more universally applied throughout FBI Aetd offices
and that the entries receive prompt follow-up or investigation.

     I n our report, we make 18 recommendations to the FBI to help
enhance the FBI's contributions to the security of U .S. seaports.
Among our recommendations are that the FBI:

          resolve potential role and incident command conflicts in the
          event of a maritime terrorist incident through joint exercises
          and, if necessary, a revised and broadened MOU with the
          Coast Guard;

      4   ensure that the Maritime Security Program has measurable
          objectives;



                                   - X -


                     REDACTED AND UNCLASSIFIED
           REDACTED AND UNCLASSIFIED

assign MLAs based on an assessment of the threat and risk of
a terrorist attack to critical seaports;

prepare after-action reports after all maritime-related
exercises and use the reports to identify and disseminate
lessons learned and best practices;

assess the threat and risk of maritime terrorism compared to
other terrorist threats;

focus intelligence reporting to more comprehensively address
potential maritime-related terrorist targets and methods; and

monitor the progress of operating divisions and field offices in
answering intelligence collection requirements pertaining to
seaports and maritime terrorism.




                         - xi -
            REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCLASSIFIED

                          TABLE OF CONTENTS
INTRODUCfION .............................................................................
                                                                                       I
    Background...........................................................................
                                                                                      1
    Authorities ............................................................................
                                                                                      2
    Prior Reports ........................................................................
                                                                                     -8

FINDINGS AND RECOMMENDATIONS ..............................................
                                                                        12

Finding 1: Maritime Initiatives ............................  .
                                                              ..  .................... 12
      Organization and Resources ..................................................    13
      Maritime Liaison Agent Program .....................      .
                                                                ..    ................ 13
      MLA Program Not Risk-Based ................................................16
      Some Risk Data Is Available ..................................................   18
      FBI Does Not Measure Efforts to Prevent Maritime Terrorism ..... 19
      Maritime Security Program ....................................................   23
      Conclusion ..........................................................................
                                                                                       26
      Recommendations ...............................................................  26

Finding 2: Maritime Response Capa bi\ity ........................................28
      Field Office SWAT Teams ......................................................  28
      Hostage Rescue Team ..........................................................  31
      Hazardous Devices Response Unit ..........................................      33
      Capability-Based Planning ..................................................... 36
      Maritime Operational Threat Response Plan .............................38
      Exercises and Responses ......................................................  42
      Conclusion ..........................................................................
                                                                                      46
      Recommendations ............................................................... 47

Finding 3: Scope of the Maritime Threat ......................................... 48
      Comprehensive Assessment of the Threat ...............................        49
      Intelligence Requirements .....................................................
                                                                                    58
      Data on the Number of Maritime Threats ................................       63
      Conclusion ..........................................................................
                                                                                    72
      Recommendations ...............................................................
                                                                                    72

STATEMENT ON COMPLIANCE WITH LAWS AND REGUtATIONS ..........74

STATEMENT ON INTERNAL CONTROLS ............................................
                                                                         75

APPENDIX I:       OBJECTIVES. SCOPE. AND METHODOLOGY.................77

APPENDIX 11: FIELD OFFICE GUARDIAN ENTRIES. 30-DAY PERIOD
             ENDING MARCH 28. 2005.........................................
                                                                        79

                        REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCLASSIFIED


APPENDIX 111: MARITIME ACTIVITY AND RISK OF MARITIME
              TERRORISM CONCENTRATED I N THE TERRITORY OF
              24 FBI FIELD OFFICES .............................................
                                                                              81

APPENDIX IV: ACRONYMS .............................................................
                                                                             82

APPENDIX V:      FEDERAL BUREAU OF INVESTIGATIONS RESPONSE TO
                 THE DRAFT REPORT.................................................83

APPENDIX V I : OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
               ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
               CLOSE REPORT ....................................................... 99




                        REDACTED AND UNCLASSIFIED

                                            ._>-I_.   .L-___-r___-.r---------.--         -
                     REDACTED AND UNCLASSIFIED

                           INTRODUCTION
Background

      U.S. seaports import and export cargo worth hundreds of billions
of dollars each year. With more than 360 ports, the nation's port
system stretches along 95,000 miles of coastline. Over 95 percent of
the nation's overseas trade flows through seaports and inland
waterways, and the U.S. economy is highly dependent on an efficient
transfer of goods flowing into and out of these gateways.

      The U.5. seaport system is complex, with each port having its
own geography, infrastructure, and mix of cargo and passengers.
Ports handle various bulk cargo, oil, liquefied natural gas, and other
goods; serve as passenger terminals for ferries and cruise lines; and
house or are adjacent to critical infrastructures such as chemical
storage facilities, oil refineries and tanks, and rail yards. Ports also
host naval bases and vessels.

       Because of the maritime domain's open nature and economic
and military significance, it is an attractive target for exploitation and
disruption by terrorists. Seaports are susceptible to terrorists because
their facilities contain critical infrastructure, are sprawling and
exposed, are accessible by water and land, are often close t o crowded
metropolitan areas, and are interwoven with complex transportation
networks.

       Consequently, seaports are vulnerable t o a variety of terrorist
attacks. For instance, cargo containers are a potential conduit for
terrorists to smuggle a weapon of mass destruction (WMD) or other
dangerous materials into the country. Also, ports often contain many
potential targets such as military vessels and bases, cruise ships,
passenger ferries, terminals, factories, office buildings, power plants,
refineries, and other critical infrastructures. I n January 2004
testimony before Congress, a Federal Bureau of Investigation (FBI)
Counterterrorism Division (CTD) official recognized ports' vulnerability
to cargo thefts and smugglers of drugs, aliens, and weapons. He
stated that terrorist organizations have studied the practices of
traditional smuggling operations and are looking to exploit any
weaknesses in the country's port security system. He also said that
access into and around U.S. port facilities is difficult t o secure without
closing access to legitimate business and recreational port traffic.



                     REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED


      While no port-related terrorist attacks have occurred in the
United States, a large-scale maritime attack could cause mass
casualties and economic disruption. Internationally, terrorists attacked
the USS Cole and the French tanker Limburg and have attempted
other attacks on maritime targets, thus illustrating terrorist groups'
interest in exploiting the vulnerability of the maritime domain.

Authorities

      The FBI derives its roles and responsibilities for preventing and
responding to maritime-related terrorist attacks against the
United States from a series of statutes and directives. The U.S.
Coast Guard also has law enforcement authority in the maritime
domain and, according to the Maritime Transportation Security Act
(MTSA), is the lead federal agency responsible for seaport security.
U.S. Customs and Border Protection (CBP), part of the Department of
Homeland Security (DHS), is responsible for preventing terrorists from
using cargo containers to smuggle personnel or a WMD into the United
States.

FBI General Authority

      The FBI's general law enforcement authority comes from
28 U.S.C. 5 533, which grants the Attorney General the authority to
appoint officials to detect and prosecute crimes against the United
States. That statute recognizes the need for the FBI to work with
other federal law enforcement agencies that may also have concurrent
authorities for crimes the FBI may investigate. In implementing this
statutory mandate, the Attorney General made this concurrent
authority clear by promulgating 28 C.F.R. 5 0.85 instructing the
Director of the FBI to "Investigate violations of the laws, including the
criminal drug laws, of the United States and collect evidence in cases
in which the United States is or may be a party in interest, except in
cases in which such responsibility is by statute or otherwise exclusively
assigned to another investigative agency."




                                  -2-

                    REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCLASSIFIED

      The FBI's statutory jurisdiction includes the "special maritime
and territorial jurisdiction" defined in 18 U.S.C. 5 7:

       The high seas, any other waters within the admiralty and
       maritime jurisdiction of the United States and out o f the
      jurisdiction of any particular State, and any vessel belonging in
       whole or in part t o the United States or any citizen thereof', or to
       any corporation created by or under the laws of the United
       States, or of any State, Territory, District, or possession thereof,
       when such vessel is within the admiralty and maritime
      jurisdiction of the United States and out of the jurisdiction of a n y
      particular State ....

      This jurisdictional definition applies to both terrorism-related
crimes as well as any other criminal offense in Title 18 U.S.C. that
specifically applies to the "special maritime and territorial jurisdiction
of the United States."

FBI Authority for Investigating Terrorism

      I n addition to the FBI's general authority to investigate federal
crimes, 18 U.S.C. 5 2332b (f), "Acts of Terrorism Transcending
National Boundaries," gives the Attorney General lead investigative
authority over terrorist crimes, as follows: "In addition to any other
investigative authority with respect to violations of this title, the
Attorney General shall have primaiy investigative responsibility for all
federal crimes of terrorism ..."

      The definition of Federal Crimes of Terrorism,
18 U.S.C. 5 2332, lists several violations within the maritime domain
in which the FBI has primacy, including:

          18 U.S.C.    5 2280 - violence against maritime navigation
          covering the hijacking, darnage/destruction, or other violence
          aboard a vessel that endangers the safe navigation of that
          vessel,

          18 U.S.C.    5   2281 - violence against maritime fixed
          platforms,




                                      -3-

                        REDACTED AND UNCLASSIFIED
                     REDACT€ D AND UNCLASSIFIED

         18 U.S.C. Ej 1363 - damage to buildings or property within
         the special maritime and territorial jurisdiction of the United
         States,

         18 U.S.C. 5 81 - arson within the special maritime and
         territorial jurisdiction, and

         18 U.S.C.   5 2332f - bombings of places of public use,
         government facilities, public transportation systems and
         infrastructure facilities including waterways.

      I n 28 C.F.R. 5 0.85, the Attorney General made the FBI's role in
investigating terrorism clear, including those situations which may
involve concurrent authority, by instructing the Director of the FBI to:

     Exercise Lead Agency respo risibility in in vestigating all crimes for
     which it has primary or concurrent jurisdiction and which involve
     terrorist activities or acts in preparation of terrorist activities
     within the statutory jurisdiction of the United States. Within the
     United States, this would include the collection, coordination,
     analysis, managernen t and dissemination of intelligence and
     criminal information as appropriate. If another Federal agency
     identifies an individual who is engaged in terrorist activities or in
     acts in preparation of terrorist activities, that agency is
     requested to prompt\y notify the FBI. Terrorism includes the
     unlawfur use of force and violence against persons or property to
     intimidate or coerce a go vernrnent, the civiljan population, or
     any segment thereof, in furtherance of political or social
     objectives.

       Presidential Decision Directives (POD) 39 and 62 reaffirm the
existing statutory responsibilities for counterterrorism assigned to the
FBI. In June 1995, 2 months after the bombing of the Murrah Federal
Building, in Oklahoma City, the President issued PDD 39 to clarify U.S.
counterterrorism policies. The PDD requires that "the Secretaries of
State, Defense, Treasury, Energy and Transportation, the Attorney
General, the Director of Central Intelligence and the Director, FBI shall
ensure that their organizations' counterterrorism capabilities within
their present areas of responsibility are well managed, funded, and
exercised."



                                   -4-

                      REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

      The PDD also directs that certain federal agencies, including the
FBI take measures to:

         reduce vulnerabilities and prevent and deter terrorist acts
         before they occur;

         respond to terrorist acts that do occur (crisis management)
         and apprehend and punish terrorists; and

         manage the consequences of terrorist acts.

       The strategy outlined in PDD 39 incorporates the need to
address terrorists' potential use of WMD across the three elements
listed above. PDD 39 gives the FBI responsibility for reducing the
United States' vulnerability to terrorism through an expanded program
of counterterrorism and gives the FBI lead federal agency
responsibility for crisis response and crisis management in t h e event of
a terrorist attack on U S . soil. Specifically, the FBI leads the
operational response to a terrorist attack while performing law
enforcement and investigative efforts to deter, preempt, apprehend,
and prosecute terrorists.

       I n May 1998, the President issued PDD 62, which reaffirms the
FBI's lead agency role in crisis management for terrorist events
occurring domestically and clarifies or establishes various agencies'
roles in the overall federal counterterrorism strategy.

United States Coast Guard

      According to 14 U.S.C. 5 2 , the Coast Guard "shall enforce or
assist in the enforcement of all applicable federal laws on, under, or
over the high seas and waters subject to the jurisdiction of the
United States," thereby granting the Coast Guard concurrent authority
over maritime matters with other federal agencies.

      The safety and protection of U.S. ports, waterways, and marine
environment are governed by Title 33 of t h e U.S. Code. As provided
by 33 U.S.C. 5 1226 and 5 1227, the Coast Guard has concurrent
authority to prevent, respond to, or investigate an act of terrorism
within its jurisdiction.



                                   -5-
                     REDACTED AND UNCLASSIFIED
                    REDACT€D AND UNCLASSIFIED

      The FBI and Coast Guard entered into several memoranda of
understanding (MOU) and other agreements, in which both federal
agencies acknowledge their concurrent jurisdiction and the need for
cooperation and coordination in the maritime domain. Most recently.
in 1979 the FBI Director and the Coast Guard Commandant signed an
MOU agreeing to a policy of mutual assistance in support of FBI and
Coast Guard operations to counteract terrorist activities in the
maritime environment. According to the MOU, the FBI:

        maintains a large number of strategically located Special
        Weapons and Tactics (SWAT) teams;

        has personnel trained to act as negotiators in dealing with
        terrorists' demands; and

        can use SWAT teams to suppress terrorists' actions during
        direct confrontation scenarios.

The Coast Guard:

        maintains and operates a large number of strategically
        located floating units, aircraft, vehicles, and shore stations;
        and

         has trained personnel to react to law enforcement activities in
         a maritime environment.

      This MOU was intended to eliminate delays in response time to
terrorist activities and encourage procedures and contingency plans to
combat terrorist activities in the maritime domain.

United States Customs and Border Protection

      The Department of Homeland Security's CBP, which enforces
import and export laws and regulations, also has responsibilities for
preventing terrorists and WMD from entering the United States.
Specifically, CBP is responsible for preventing terrorists from exploiting
vulnerabilities caused by the movement of millions of oceangoing
containers. Because approximately nine million of these cargo
containers arrive at U.S. seaports every year, it is not feasible for CBP
inspectors to physically inspect each container. Instead, CBP
inspectors, both a t overseas and U.S. seaports, assess the risk of each
                                  -6-

                     REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

container to determine which containers will undergo inspections. For
those containers determined to be high-risk. CBP inspectors perform a
non-intrusive examination, an intrusive inspection, or a combination of
both. A non-intrusive examination may include one or more of the
following techniques: use of an x-ray or gamma ray machine to
identify anomalies in a container's contents, radiation detectors to
identify illegitimate radioactive material, and canine search for
narcotics or explosives. An intrusive inspection generally involves a
partial or total removal of a container's contents.

Recent Legislation and Directives
      Since the attacks of September 11, 2001, the federal
government has been attempting to strengthen U.S. transportation
and critical infrastructure security weaknesses. Seaports have been
widely recognized as a critical vulnerability in the nation's defense
against terrorism.

        I n November 2002, Congress passed the Maritime
Transportation Security Act. which mandated an increase in the Coast
Guard's responsibility in maritime terrorism prevention and response.
The MTSA also requires the Secretary of Homeland Security, through
the Coast Guard, to conduct a detailed vulnerability assessment of port
facilities and vessels that may be involved in a transportation security
incident. The vulnerability assessment must include the identification
and evaluation of critical assets and infrastructures, identification of
the threats to those assets and infrastructures, and identification of
weaknesses in areas such as physical security, structura 1 integrity, and
contingency response.

      The MTSA also requires that the Coast Guard develop a National
Maritime Transportation Security Plan for deterring and responding to
a transportation security incident at U.S. ports. This plan must
identify: assignments of duties and responsibilities among responding
federal, state, and local agencies; security resources; emergency
procedures; and ranking of critical infrastructure.

      The MTSA also directed the Coast Guard to create Maritime
Safety and Security Teams (MSSTs) capable of rapidly responding to
maritime terrorism threats to U.S. waters and ports. MSSTs are
required to have the ability to conduct high-speed intercepts; board,
search, and seize any harmful article in a vessel or port; and assist



                     REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

with vulnerability assessments of facilities. The MSSTs are directed to
coordinate their activities with other responding agencies.

      On December 21, 2004, the President Issued National Security
Presidential Directive 411Homeland Security Presidential Directive 13,
entitled "Maritime Security Policy," outlining a policy to fully coordinate
and integrate government-wide efforts to protect U.S. interests in the
maritime domain. The directive requires the Secretaries of Defense
and Homeland Security to jointly lead the interagency effort by
drafting an overarching maritime domain strategy called the National
Strategy for Maritime Security along with eight supporting plans.

       The National Strategy for Maritime Security, issued in September
2005, attempts to align federal government maritime security
programs into a comprehensive national effort involving federal, state,
local, and private sector entities. The eight supporting plans address
the specific threats and challenges of the maritime environment. One
supporting plan, the October 2005 Maritime Operational Threat
Response [MOTR) plan, details federal agencies' protocols in
responding to various maritime terrorism threats or incidents. The
MOTR describes the U.S. government's plan to respond to terrorist
threats in the maritime domain, including the roles of the different
federal agencies, protocols for lead and supporting agencies, and the
need for additional planning. It calls for operating plans outlining how
each lead agency will fulfill its responsibilities. The MOTR endorses




Prior Reports

      The Department of Justice (DO]) Office of the Inspector General
(OIG) and the Government Accountability Office (GAO) have
conducted several audits that are relevant to our review of t h e FBI's
maritime terrorism efforts.




                                   - 8 -

                     REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

Department of Justice OIG

     Since 2002, the OIG has published several reports discussing FBI
counterterrorism programs and initiatives.

      I n September 2002, the OIG issued Audit Report 02-38, A
Review of the Federal Bureau o f Investigation 's Counterterrorism
Program: Threat Assessment, Strategic Planning, and Resource
Management, which reviewed aspects of the FBI's management of its
counterterrorism resources. This report found that the FBI had not
performed a comprehensive assessment of the terrorist threat facing
the United States and that the FBI has adequately established
strategic priorities or effectively allocated resources to its
counterterrorism program. The report made 14 recommendations to
the FBI, including:

         prepare an authoritative written national-level threat and risk
         assessment of terrorism with a predictive and strategic view,
         including the potential use of WMD;

        develop criteria for evaluating and prioritizing incoming threat
        information for analysis, and establish a protocol to guide the
        distribution of threat information; and

         issue a policy on and develop a system for capturing and
         disseminating lessons learned from counterterrorism
         incidents, operations, and exercises.

       I n December 2003, the OIG issued Audit Report 04-10,
The Federal Bureau of Investjgation s' Efforts to Improve the Sharing of
Intelligence and Other Information. The focus of this audit was to
identify and evaluate corrective actions taken by the FBI to improve
the sharing of intelligence and other information since the
September 11, 2001, terrorist attacks. The OIG made six
recommendations to improve the FBI's ability to provide useful
information within the FBI and to other federal, state, and local
agencies. One recommendation stated the FBI should use its Concepts
of Operations as a framework to establish a written policy and
 procedures for information sharing, including what types of
information should be shared with specific parties, and under what
circumstances.




                    REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED

      I n June 2005, the OIG issued Audit Report 05-27, Review of the
Terrorist Screening Center (TSC). The TSC was created to consolidate
government watch lists of suspected terrorists, and the FBI was
designated as the lead agency responsible for administering the TSC.
The OIG report provided 40 recommendations to the TSC to
strengthen its operations. The OIG report highlighted the TSC's need
to create formal plans for automating greater outreach of threat
information to particular target organizations and industries. For
instance, the TSC should have a targeted maritime group with key
government and private stakeholders. The OIG identified weaknesses
in the consolidated watch list in the completeness and accuracy of
data, and recommended that the TSC develop procedures to regularly
review and test the information contained in the terrorist screening
data base.

       I n addition, the OIG concluded that the management of the TSC
call center and its staff needed improvement. The OIG recommended
that the TSC establish protocols for the proper entry and review of
data in the Encounter Management database and develop an
automated method for flagging records in the database that require
follow-up action. Likewise, the TSC needed to establish an automated
method for entering call data and sharing this data with the FBI's
Counterterrorism (CT) Watch to eliminate redundancy and reduce the
time it takes for CT Watch to receive the data.

Government Accountability Office
      The GAO has also conducted reviews of the FBI, with several
reports recommending the FBI initiate risk-management techniques
and performance measures.

      Since 1998, the GAO has consistently advocated the use of risk-
management techniques to allocate the nation's counterterrorism
 resource^.^ I n 1999, the GAO further recommended that the FBI
conduct a national-level assessment to corn bat terrorism .3

        Government Accountability Office. Combating Terrorism: Threat and Risk
Assessments Can Help Prioritize and Target Program Investments
(GAOlNSIAD-98-74), April 9 , 1998.

       Government Accountability Office. Combating Terrorism: Need for
Comprehensive Threat and Risk Assessments of Chemical and Biological Attacks
(GAO/NSIAD-99-163), September 14, 1999.




                      REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED


      I n January 2005, the GAO issued Homeland Security: Agency
Plans, Implementation, and Challenges Regarding the National
Strategy for Homeland Security, which analyzes government-wide
challenges in implementing counterterrorism and homeland security
strategies. The report recognized that improving risk-management
met hods for resource allocation and investments is a challenge facing
all federal departments with homeland security missions. A risk-
management approach entails a continuous process of managing risk
through a series of actions, including setting strategic goals and
objectives, assessing risk, evaluating alternatives, selecting initiatives
to undertake, and implementing and monitoring those initiatives. The
report also discusses a second government-wide challenge, developing
adequate performance measures for homeland security initiatives.




                                  - 11 -
                     REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCLASSIFIED

             FINDINGS AND RECOMMENDATIONS
Finding 1: Maritime Initiatives

      Maritime Liaison Agents ( M U ) , assigned to 3 1 of the FBI's 56
      field offices and 12 of its resident agency ofices, are the most
      visible FBI resource dedicated t o maritime terrorism. MLAs are
      primarily responsible for coordinating with other organizations
      who share responsibility for security a t the nation's ports, to
      facilitate the sharing of information on threats and security
      measures. However, because the MLA program is not risk-
      based, MLAs are not necessarily assigned to the most critical
      ports. As a result, field offices with multiple vital ports have only
      one MLA while other field offices with only minor maritime
      activity have multiple MLAs. The FBI's case classification system
      does not allow it to measure the amount of time MLAs or other
      agents or analysts spend preventing or investigating maritime
      terrorism, including related categories such as time spent on
      training or participating in Coast Guard-sponsored Area Maritime
      Security Committees ( A M S C ) . ~

      Shortly after our audit began in May 2005, the CTD created a
      Maritime Security Program and transferred the M LA program into
      it. The Maritime Security Program is intended to be the focal
      point for the FBI's maritime efforts and is charged with
      coordinating the FBI's obligations and responsibilities under the
      National Strategy for Maritime Security and the strategy's eight
      implementing plans. The Maritime Security Program has 13
      objectives for fiscal year (FY) 2006, many of which we believe
      will be beneficial and help focus the FBI's maritime-terrorism
      efforts. However, we are concerned that the objectives do not
      include critical areas such as the development of informants and
      threat assessments.




        AMSCs, mandated by the Maritime Transportation Security Act, are
comprised of federal, state, and local agencies as well as representatives of the
shipping and port communities. Each committee is charqed with assessing its port's
vulnerabilities and developing plans to meet security requirements.




                       REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

Organization and Resources

      The FBI's CTD has primary responsibility for preventing terrorist
attacks and investigating acts of terrorism after they occur. The FBI
does not measure the amount of resources it devotes to preventing
and investigating maritime terrorism, and there is no single entity
within the CTD that is responsible for the maritime terrorism portfolio.
The most visible resource dedicated to maritime terrorism is the CTD's
MLA program. Other FBI components that play a major role in fighting
maritime terrorism include the National Joint Terrorism Task Force
(NJlTF), the CT Watch, the WMD/Countermeasures Unit, and the
Special Events Management Unit.

Maritime Liaison Agent Program

      The FBI's NJTTF created the MLA program in 2004 as a result of
Operation Dive Shop, a joint FBI-Coast Guard project in 2002 that
investigated and analyzed the potential terrorist threat posed by divers
and corn bat swimmers. The CTD's WMD/Domestic Terrorism
Operations Section, which managed the FBI's involvement in the
project, found that few of the FBI's local Joint Terrorism Task Forces
(J7TFs) had personnel who were either trained in the maritime trade or
had established regular and effective relationships with the FBI's
partners at ports in their territory. This section suggested that the
JTTFs designate personnel to act as liaisons with law enforcement and
non-law enforcement personnel a t seaports.

       I n response to the suggestion from the WMD/Domestic Terrorism
Operations Section, the N J n F reviewed the FBI's efforts to prevent
terrorism in the maritime domain and found the following.

         Some field offices with major ports (Baltimore, Long Beach,
         and Miami, for example) had personnel knowledgeable about
         the maritime domain and had used them to establish good
         relationships with relevant agencies in their ports.

         Some J l T F s had personnel qualified to act as liaisons to the
         maritime community, but many J l T F s were not using them
         for that purpose.

         Many FBI special agents in charge were participating in port
         security com mittees.



                    REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED


        The FBI did not have any training for agents who worked a t
        seaports or special agents in charge who participated in port
        security committees.

       The MLA program formally began in July 2004 when the NJTTF
sent an electronic communication (EC) to all field offices requesting
that those field offices with major waterways in their territory name
personnel to be assigned to the M I A program. I n the EC announcing
the MLA program, the N J l T F outlined the need for the program, its
goal, its anticipated results, and an MLA's duties. The NJ-TTF stated
that it had determined that the "maritime threat and terrorism-related
intelligence could best be coordinated and disseminated to concerned
entities through the adoption of the M I A program." The NJlTF also
said the program's goal was to enhance the security of the maritime
environment through increased interaction between M LAs and the
FBI's maritime partners. The NJ-TTF envisioned that this increased
interaction would "decrease response time to actionable intelligence
and operational tasking by capitalizing on matured relationships."

       According to the July 2004 EC, the new MLAs were to work full-
or part-time to establish and maintain relationships with
representatives of "maritime institutions" in their respective
geographical areas. MIAs were to be in regular contact with maritime
specialists a t the NJlTF to allow for increased information sharing. By
centralizing the FBI's maritime counterterrorism efforts, the NJTTF
believed that it would create consistency in MLA job responsibilities,
training, and reporting procedures. With the help of field offices that
had already established maritime programs, the NJ l T F identified the
following MLA duties.

         Contact each of the entities below and identify a point of
         contact for security matters.

         o Area Maritime Security Committee
         o   Anti-Terrorism Advisory Council
         o   Coast Guard Investigative Service
         o   Coast Guard Captain of the Port or Group Commander
         o   Coast Guard Marine Safety Office
         o   Coast Guard Field Intelligence Support Team
         o   CBP - Operations
         o   CBP - Intelligence



                    REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED

               County/Local Emergency Operations
               Ferry Security Director
               Fire Department
               Harbor Master
               Harbor Patrol/Police
               Regional Office of U.S. Immigration and Customs
               Enforcement
               Local Police with Maritime Authority
               Port Engineers
               Passenger Ship Terminal Security
               Regional Omce of Navy Criminal Investigative Service
               State Homeland Security Advisor
               State Natural Resource/Fish and Game Police
               State/Local Pilots Association
               Significant Industry, including petrochemical industry
               Regional Office of the Transportation Security
               Administration
               U.S. Army Corps of Engineers, Homeland Security Regional
               Office
               U.S. Attorneys Office
               U.S. Park Police
               Waterfront Commission

             Identify locations where secure databases may be accessed.

             Establish 24-hour emergency contact lists for maritime
             resources, contacts, and agencies.

             Research establishing e-mail groups to facilitate information
             sharing between maritime liaisons.

             Review existing maritime initiatives for potential
             enhancement^.^
      The CTD managers with whom we spoke agreed that MLAs
should not be involved with port security activities such as enforcing
regulations. MLAs should establish relationships in their ports that
allow the FBI to immediately receive and transmit information
concerning ports, merchants, vessels, and cruise lines. However, the
MLA position is broader than that of a liaison: an M U should be the

         The N I T F was to use this information to identify and disseminate best
practices.
                                       - 15 -
                        REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

FBI field office's maritime expert. According to a CTD Deputy
Assistant Director, this expertise, coupled with knowledge of the local
port, should provide each field office with "situational awareness."
Regardless of whatever event happens a t a port, an MLA should know
the port's procedures, protocols, and schedules and have relationships
with key organizations to aid the FBI in resolving the event. I n our
judgment, the CTD managers' understanding of the role of the MLA is
significantly more encompassing and outcome-based than the duties
outlined in official guidance.

MLA Program Not Risk-Based

      Prior to developing the requirements for the MLA program, the
NJlTF did not perform or review a risk assessment to identify the level
of resources each field office, including resident agencies, should
devote to maritime issues. Instead, each field office was given the
discretion to:

         define major waterways in its territory;

         name one MLA for its entire territory, regardless of the
         number or size of the ports; and

         determine whether its MLA(s) would be full- or part-time.

       I n recent years, audit organizations, Congress (most recently
through the Intelligence Reform and Terrorism Prevention Act of
2004), the Executive Branch through presidential directives, and the
9111 Commission have required or advocated that federal agencies
with homeland security responsibilities employ a risk-management
approach to help ensure that finite resources are allocated to those
programs and critical geographic areas where they will have the most
impact. Without a risk-management approach, there is limited
assurance that programs designed to corn bat terrorism are properly
prioritized and focused. Applying risk-management techniques to the
FBI's counterterrorism program can he1p assure it allocates resources
effectively and efficiently to counter terrorist threats.

      According to the GAO, risk assessment is a critical element of
risk management. A risk assessment helps managers identify and
evaluate potential risks so that countermeasures can be designed and
implemented to prevent or mitigate the effects of the risks. Risk



                    REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED

assessments can be qualitative or quantitative. Regardless, they
determine the likelihood of an adverse event occurring and the
severity of the consequences. When applied to counterterrorism, risk
assessments often involve three elements: threat, criticality, and
vulnera b i ~ i t y . ~

         A threat assessment identifies and evaluates potential threats
         on the basis of factors such as capabilities, intentions, and
         past activities.

         A criticality or consequence assessment evaluates and
         prioritizes assets and functions in terms of specific criteria,
         such as their importance to public safety and the economy as
         a basis for identifying which structures or processes are
         relatively more important to protect from attack.

         A vulnerability assessment identifies weaknesses that may be
         exploited by identified threats and suggests options to
         address those weaknesses.

       A risk assessment would be useful in determining the amount of
resources the FBI should devote t o maritime terrorism and where it
should locate those resources. However, the FBI has not conducted a
risk assessment and therefore does not know whether it has allocated
its resources in a manner that will achieve the MLA program's
objectives.

       As of October 2005, field office managers in 43 of the FBI's 56
Field offices had named MIAs either a t their field office, one or more of
their resident agencies, or both. Because the MlA program is not risk-
based, some ofices with several significant ports in their territory have
named only one MLA, and offices with no strategic ports have named
multiple MIAs. For example, the New Orleans field office, with only
one MLA, has six significant ports in its territory. I n comparison, the
Louisville field office has no strategic ports in its area but designated
five MIAs, two in the field office, and one each in three of its resident
agencies.



        Testimony before the Senate Committee on Commerce, Science, and
Transportation. Transportation Security: Systematic Planning Needed to Optimize
Resources (GAO-05-357T), February 15, 2005.
                                     -   17-

                      REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCLASSIFIED

       Twelve of the remaining 13 field offices have not named MIAs
because they determined they do not have any navigable waterways in
their territory. We analyzed the territory of these 12 field offices and
found that their maritime responsibilities vary from not having any
ports to having significant ports. For example, we found that the
Jackson, Mississippi, field office's territory includes three significant
ports. I n 2003, the Bureau of Transportation Statistics ranked
Pascagoula, Mississippi, 17th among the nation's 361 ports in terms of
the tonnage of products shipped. As the result of a risk-based
assessment, in Mississippi the DHS selected Greenville, Pascagoula,
and Vicksburg as 3 of the 66 ports eligible to apply for a 2005 Port
Security Grant. The 13th field office, Milwaukee, did not respond t o
the EC asking field offices to name MLAs. However, the Port of
Milwaukee met the DHS's risk-based criteria for eligibility to apply for a
2005 Port Security Grant.

Some Risk Data Is Available

       While the FBI did not base the MLA program on a risk
assessment of the nation's ports, publicly available data provides some
insight into which of the nation's ports face the greatest risk. For
example, the Bureau of Transportation Statistics publishes data on the
nation's largest seaports, both in terms of value and tonnage.
Furthermore, in PI 2005, the DHS allowed only the most at-risk
seaports to apply for Port Security ~ r a n t s .I ~
                                                   n that program, the DHS
evaluated the nation's 129 largest-volume ports using the following
risk formula: Risk = Consequence x Vulnerability x Threat.

       The consequence risk factor considered the number of people,
economic, and national security impacts, and port-specific
considerations such as oil and hazardous materials. The vulnerability
risk factor considered the following data : the distance from open
water, the number of port calls, and the presence of tankers. Data for
the threat risk factor included credible threats and incidents reported
by the intelligence community, operational indicators such as less
credible threats and incidents, and vessels of interest. Based on its



       '  According to the DHS, its FY 2005 Port Security Grants provided $150
million to provide protection against small craft, underwater attacks and vehicle
borne improvised explosive devices, enhanced explosives detection capabilities for
the owners and operators of vehicle ferries and associated facilities, and facility
security enhancements to the highest risk ports.
                                       -   18 -

                        REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

risk-based evaluation, the DHS identified 66 ports for eligibility in the
2005 Port Security Grant program.

       Thirty-five FBI field offices have a t least 1 port in their territory
that is either a top 20 port by value or volume or was eligible to apply
for a 2005 Port Security Grant. However, as shown in Appendix 111,
much of the maritime activity and risk of maritime terrorism is
concentrated in the territory of 24 FBI field offices. Those 24 field
offices are responsible for all of the top 20 ports and 83 percent of the
port areas eligible to apply for FY 2005 Port Security Grants.

      I n our judgment, the FBI's resources should be focused on the
areas that face the greatest risk of terrorist attack. Counterterrorism
Division managers agreed that the MLA program should be
strategically driven and said that resources should be allocated based
on a port's law enforcement need, unique challenges and assets, and
threat assessments.

F B I Does Not Measure Efforts to Prevent Maritime Terrorism

       The FBI does not have a method of tracking the amount of time
its agents spend preventing or investigating maritime terrorism.
Currently, under the FBI's case classification system, most MLA
activities are designated as "Counterterrorism Preparedness - Other."
This classification is not specific enough to allow managers of the FBI's
maritime efforts to determine the amount of resources the FBI is
spending maritime issues. For the FBI t o implement a risk-based
counterterrorism program, its managers must know the amount of
resources it devotes to each type of its counterterrorism initiatives.
According to N I l T F personnel responsible for the MLA program, the
FBI should collect data on subcategories of the FBI's maritime efforts
including the following.

         Attend Operational Maritime Training

          Conduct Operational Maritime Training/Presentation

          Positive Maritime-Related Terrorism Disseminated Within the
          FBI

          Positive Maritime-Related Terrorism Disseminated Outside the
          FBI



                      REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


           Participate as Member of an Area Maritime Security Working
           Groupflask Force

           Participate in Maritime Command Post/Major Case/Special
           Event
           Participate in Development of Maritime Operational Plan

           Participate in Maritime Field Training Exercise

           Participate in a Maritime Table Top Exercise

           Maritime Investigative/Response/Assistance Provided to
           Local/State/Federal Agency

           Tactical Maritime Response/Assistance Provided to
           Local/State/Federal Agency

           Maritime Counterterrorism Response/Preparedness Contact
           Developed

           Maritime-Related Liaison

       We agree with the NJTTF about the FBI's need to collect data by
subcategory. As part of our audit, we asked the FBI for data on many
of these categories including : (1) training, (2) Area Maritime Security
Committees, (3) maritime exercises, and (4) maritime responses. FBI
officials could not provide this data and instead had to use other
met hods such as personal recollection to provide general answers to
these questions. One method to measure the amount of resources
devoted to maritime issues would be to create sub-classifications
within the Counterterrorism Preparedness classification. These new
classifications would also allow FBI personnel to record
accomplishments that occur in the maritime domain.

Training

      While the FBI was not able to provide us with complete data on
the training its MIAs or other personnel have attended, either as a
student or instructor, the NJ-TTF provided a course to MLAs in 2004.
According to FBI officials, the purpose of the course was to introduce
new MtAs to issues specific to preventing terrorism a t the nation's



                      REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCIASSIFIED

seaports and to allow MLAs with maritime experience to discuss best
practices. FBI officials said approximately 40 MLAs attended the 4-day
class, which covered legal issues (including the Coast Guard's
authority), port-related infrastructure, boarding procedures, and vessel
safety. Personnel from the Coast Guard Investigative Service, which
the FBI identified as the organization most capable to teach the
course, taught most of the class. The N J l T F scheduled another
training session for July 2005. However, this conference was cancelled
when the CTD did not approve the necessary funding. The responsible
CTD manager said requests for training throughout CTD exceeded the
division's training budget, which was reduced by $1million as the
result of reprogramming to help fund the development of the FBI's
Sentinel case management system.

Area Maritime Security Committees

       In written testimony for the Senate Judiciary Committee's
Subcommittee on Terrorism, Technology, and Homeland Security on
January 27, 2004, the FBI's Acting Assistant Director for
Counterterrorism testified that the FBI is a full participant in the Coast
Guard's Area Maritime Security Committees (AMSC). These
committees, which were mandated by the Maritime Transportation
Security Act, are comprised of federal, state, and local agencies as well
as representatives of the shipping and port communities. Each
committee is charged with assessing its port's vulnerabilities and
developing plans to meet security requirements. The FBI's Acting
Assistant Director for Counterterrorism further explained that AMSCs
and their predecessor committees offered the FBI an opportunity to
provide threat analysis and disseminate intelligence.

       The CTD does not track field offices' participation in AMSCs or
collect any data on FBI participation in AMSCs, so it does not know the
amount of resources (in terms of hours) the FBI devotes to AMSCs.
Participation in AMSCs is left to the discretion of field office managers.
However, at our request the FBI collected data on the number,
location, and position of its AMSC representatives. Twenty-six FBI
field offices and 13 resident agencies reported having representatives
on AMSCS.' The number of representatives and their position varies
by field office. For example, the special agents in charge of three field

         Three offices that reported to the MLA coordinator a t headquarters that
they did not have any navigable waterways in their territory - Cincinnati,
Indianapolis, and Jackson - reported having AMSC representatives.
                                       - 21 -
                        REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

offices - Mobile, San Diego, and San Francisco - reported
participating in their local AMSCs. I n comparison, the Chicago field
office reported that its sole representative was a Coast Guard
Investigative Service agent assigned t o its JTTF. As shown in the
following table, the majority of the FBI's 67 AMSC representatives are
special agents or supervisory special agents.

                       F B I Representation on
                 Area Maritime Security Committees



  L=                 Position

   Special Agent, including Supervisory
   Special Agent
                                                  Number of
                                                Representatives
                                                        47

   Assistant Special Aqent in Charge                -    6
   Supervisory Senior Resident Agent                    4
   Intelligence Analyst, including Senior               4
   Intelligence Analyst
   Special Agent in Charge                               3
   J l T F Agent                                         2
   Computer Scientist                                    1
   Total                                                67
      Source: OIG analysis of FBI data

       While AMSCs offer the FBI an opportunity to provide threat
analysis and disseminate intelligence to maritime partners,
participation in an AMSC is not one of the critical duties identified for
MLAs. Instead, MLAs were directed to contact their AMSC and identify
a point of contact for security matters. While AMSC participation is not
required, we found that 25 of the 73 MLAs (34 percent) participate in
an AMSC. Of those 25, 6 are on the executive committee or chair a
subcommittee .

     AMSCs vary widely in size, with some AMSCs having
subcommittees and executive committees. According to January 2004
Coast Guard data, AMSCs ranged in size from 9 members and no
subcommittees to 446 members including 9 subcommittees. The
San Diego field office reported having the most AMSC representatives,
seven, including representatives on the executive committee and three
subcommittees. Of the 39 field offices and resident agencies that
reported having AMSC representatives, 13 (33 percent) reported they



                      REDAGrEO AND UNCLASSIFIED
                    REDACTED AND     UNCLASSIFIED

had a representative on an AMSC executive committee. These 13
offices reported having a total of 18 representatives, 39 percent of
which were assistant special agents in charge or special agents in
charge.

Maritime Security Program

      I n July 2005, after our audit began, the FBI established a
Maritime Security Program within the CTD's Special Events
Management Unit and transferred responsibility for the management
of the MLA program t o the Maritime Security Program. CTD oflTcials
said the Maritime Security Program is modeled after the Special Events
Management Unit's Civil Aviation Security Program, which was created
in the 1990s and includes 530 airport liaison agents. The Civil Aviation
Security Program offers a number of practices which may be
transferable to the new Maritime Security Program :

         The Civi t Aviation Security Program is risk-based according to
         FAA criteria, and Airport Liaison Agents are required a t high-
         risk airports.

         The FBI participates in joint Transportation Security
         Administration/FBI threat and vulnerability assessments of
         individual airports.

         The Civil Aviation Security Program tracks aviation-related
         suspicious activity and disseminates the results within the FBI
         and intelligence partners.

      Because the Maritime Security Program is a recent initiative, we
could not fully assess its impact. We found that the goals and
purposes of the Maritime Security Program are not yet clear. The CTD
established the Maritime Security Program to coordinate the FBI's
obligations and responsibilities under the National Strategy for
Maritime Security. However, the Maritime Security Program's stated
mission is much broader: prevent, disrupt and defeat terrorism
directed against maritime targets and take a leadership role in
counterterrorism preparedness by assisting federal, state, and local
agencies responsible for maritime security.

     According to an August 2005 EC outlining the Maritime Security
Program's goals and objectives, the program aims to enhance the



                    REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

FBI's ability to prevent and disrupt terrorism by developing a detailed
knowledge of operational and policy matters affecting seaports and the
maritime domain. The Maritime Security Program plans to achieve this
knowledge by developing informants, distributing intelligence,
assisting in investigations, conducting threat and vulnerability
assessments, and developing or enhancing relationships with law
enforcement and intelligence partners. The Maritime Security Program
established three goals, each wlth objectives intended t o measure
progress toward meeting the goal :

        utilize available resources to provide maximum assistance to
        the MIAs;

         identify, analyze, and disseminate information pertaining t o
         maritime threats, vulnerabilities, and safety or security
         issues; and

         establish and maintain liaison with federal, state and local law
         enforcement, the intelligence community, and the maritime
         industry.

       I n addition to the 13 objectives supporting the program's 3
goals, the Maritime Security Program also developed 4 "recommended
objectives" for FBI field offices. We believe the initiative behind
several of the objectives shows that the FBI's maritime efforts are
maturing. Specifically, during PI 2006 the Maritime Security Program
plans to complete the transfer of the MLA program from the NJlTF to
the Maritime Security Program, thereby placing all of the FBI's
transportation-related counterterrorism programs in the same
organizational unit. I n addition, the MSP has recognized the general
principals of risk management and has planned at least one future
initiative accordingly. Based on a broad understanding of threat and
criticality, the Maritime Security Program identified 10 major U.S.
transportation hubs, metropolitan areas that contain both a major
seaport and a major airport. The Maritime Security Program plans t o
visit 30 percent of these hubs in PI 2006. Each of these 10 hubs is in
the territory of one of the 24 field offices listed in Appendix 111.

      The Maritime Security Program also plans to create a website on
the FBI's Intranet, allowing the Maritime Security Program to
disseminate intelligence, security directives, training materials, and
points of contact. I n addition, the Maritime Security Program plans to



                    REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

review maritime-related suspicious activity reports and identify any
trends that may be indicative of pre-operational planning. We believe
the collection and analysis of suspicious activity reporting is a critical
undertaking. Until the FBI's suspicious activity tracking system,
discussed in Finding 3, has sufficient search capabilities to easily
identify maritime-related threats and suspicious activity, it may be
appropriate for the Maritime Security Program to review and report on
such activity.

      Lastly, the Maritime Security Program has asked field offices to
name an FBI special agent or supervisory special agent as primary
MLA. Currently, 32 percent of all MLAs are not FBI personnel but are
personnel from other agencies assigned to one of the FBI's J l T F s . For
example, 19 percent of MLAs are Coast Guard Investigative Service
agents.

      While we believe a number of the initiatives listed as objectives
are positive developments, none of the objectives are phrased in a
manner that allows the FBI to measure the outcome of its efforts. For
example, one objective under the first goal is, "Develop and provide
basic training and reference materials to assist the MLAs." This
objective does not measure the output - the number of MLAs trained
- or the outcome - the number of MLAs capable of effectively
boarding a vessel.

      While the CTD initiated the Maritime Security Program to
coordinate the FBI's response to the National Strategy for Maritime
Security, and the Maritime Security Program lists that role as an
objective, we found that the Maritime Security Program has not
reviewed the strategy's eight implementing plans to identify the FBI's
responsibilities. Nor has the Maritime Security Program identified all of
the FBI's representatives to the different working groups charged with
implementing the plans.

      According to Maritime Security Program planning documents, the
Maritime Security Program will rely on the skills the FBI already has,
including its ability to develop relationships with informants and other
people who can provide substantive information to aid FBI
investigations. The MSP plans to use this ability t o develop sources of
information to provide the FBI with a detailed knowledge of the
operations at the nation's seaports. However, neither the Maritime
Security Program's FY 2006 goals and objectives nor the critical duties



                     REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

of an MLA include the need for the FBI to develop relationships with
people who can inform the FBI about maritime operations. Also, the
Maritime Security Program has not taken any steps to review the FBI's
current human intelligence base to identify current informants who
may be able to provide information on maritime terrorism.

     The MLA program and the Maritime Security Program were both
formed to aid in rapidly disseminating information. I n our judgment,
developing and maintaining a current roster of MLAs is vital to this
capability. Responding to our request for a list of AMSC
representatives, FBI field offices named seven personnel as MLAs that
were not on the Maritime Security Program's latest list of MLAs.

Conclusion

      The FBI has limited resources, so it should ensure that the
amount of resources devoted to maritime terrorism is measurable and
allocated among its many counterterrorism programs according to
threat and risk. Within the maritime arena, the FBI needs to ensure
that ports facing the greatest risk receive the largest amount of
resources. For example, the number of MLAs assigned to a field office
or a resident agency should be proportionate to the risk of maritime
terrorism faced by the ports in its territory.

      The MLA position is relatively new and appears to be evolving.
The recent transfer of the MLAs to the Maritime Security Program
presents an opportunity for the FBI to reevaluate MLA roles and
responsibilities. We believe that MLAs should focus on the FBI's
strengths by recruiting informants and aiding in threat and
vulnerability assessments. The FBI should ensure that the Maritime
Security Program develops rneasurable annual objectives t o allow it to
assess the program's progress.

Recommendations

      We recommend that the FBI:

      1   Ensure that MLA guidance is consistent with the actual role
          of MLAs.

      2. Assign MLAs based on an assessment of the threat and risk
         of a terrorist attack to critical seaports.



                    REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCLASSIFIED


         3.   Measure the amount of resources devoted to maritime
              efforts by establishing a maritime case classification under
              the general Counterterrorism Preparedness classification.

         4.   Require field offices to name at least one MLA to each
              AMSC.

         5. Require field offices to immediately notify the Maritime
              Security Program of any MLA appointments or
              reassignments.

         6.   Ensure that the Maritime Security Program has measurable
              objectives.

         7.   Ensure that the Maritime Security Program's objectives
              include developing human intelligence.




                        REDACTED AND UNCLASSIFIED



-   ,-                                        "-       --,-
                                                                             .-
                   REDACTED AND UNCLASSIFIED

Finding 2 : Maritime Response Capability

     Response to terrorist threats or incidents in the maritime domain
     presents unique challenges to the FBI and any other responding
     agency. FBI SWAT teams, Hostage Rescue Team (HRT), and
     Hazardous Devices Response Unit (HDRU) may all be involved in
     responding to a maritime-based terrorist attack. The Coast
     Guard also has significant responsibility for enforcing U.S. laws
     in the maritime domain, a role that received an added terrorism
     component with the passage of the Maritime Transportation
     Security Act of 2002. Officials a t the FBI and the Coast Guard
     agreed that the Act may have created some overlapping
     responsibilities between the two agencies. Officials from both
     agencies also agreed that the Maritime Operational Threat
     Response (MOTR) plan, one of the plans supporting the
     implementation of the National Strategy for Maritime Security,
     should resolve any such issues. However, the MOTR issued in
     October 2005 is an interim plan, which FBI officials say does not
     clearly delineate the roles of the Coast Guard and the FBI and
     therefore raises concern about potential confusion over
     authorities and incident command in the event of a terrorist
     attack in the maritime domain.

Field Off ice SWAT Teams

       Each of the FBI's 56 field offices has a SWAT team, and the
teams receive basic training in areas that are useful for operating in
the maritime domain including water safety, limited climbing
techniques, and exposure to close quarters battle tactics. Some teams
receive somewhat more training and equipment than others, but all
have a limited maritime capability in comparison to the FBI's HRT,
discussed in more detail below. I n September 2005, in an effort to
enhance joint FBI/Coast Guard tactical efforts, the FBI created 14
enhanced maritime SWAT teams, nearly all of which are located in the
FBI field office closest to one of the Coast Guard's 13 Maritime Safety
and Security Teams (MSST). The enhanced maritime SWAT teams are
to receive additional maritime training and maritime equipment. The
additional training will provide the 14 SWAT teams with a limited
maritime capability for emergency purposes and allow those teams to
work effectively with the MSSTs. The enhanced maritime training will
focus primarily on water safety techniques and the unique aspects of
tactical operations in the maritime arena.



                    REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCLASSIFIED


       Upon notification of an imminent maritime threat or incident, an
FBI special agent in charge can dispatch a local field office's SWAT
team. After responding to the incident, the SWAT team and FBI field
office management will assess the situation and determine if they have
the capability to deal with the threat. According to FBI officials,
assaulting a vessel containing terrorists who oppose the boarding
poses unique challenges for the assaulting force and most FBI SWAT
teams do not have the capability to overcome these challenges. First,
the team must board the vessel. Second, the team must navigate and
fight its way to strategic locations on the vessel. According to officials
of the FBI's Critical Incident Response Group (CIRG), most FBI SWAT
teams do not possess the skills and equipment needed to accomplish
these tasks.

      According to FBI officials, an FBI SWAT team has two methods of
assaulting a ship that is docked. The assaulting team can either use
the gang plank or "hook and climb," a technique in which a grappling
hook attached to a flexible wire ladder is thrown onto the side of a ship
and the assault team climbs the ladder to get on deck. The hook and
climb method can also be used on vessels that are adrift. However,
the SWAT team needs a boat to reach the target vessel. Under
extreme circumstances, a SWAT team could use the hook and climb
technique to assault a moving ship. Because the hook and climb
technique requires a boat, 13 FBI field offices have obtained between
one and four boats each. Without its own boats, these SWAT teams
would have to rely on the Coast Guard for transport to an incident.




          The FBI formed the Critical Incident Response Group in 1994 to facilitate
the FBI's rapid response to and management of crisis incidents.
                                       - 29 -
                        REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

      FBI SWAT Team Hooks and Climbs During an Exercise




      Source: OIG photo

       Some FBI offlclals have expressed concern about FBI SWAT
teams' reliance on the Coast Guard for transport to an incident. Their
concerns focused on the need for a SWAT team to practice as a unit,
uslng the same boats and the same boat pilots it would use during an
actual incident. FBI officials sard that not all boats are suitable for a
tactical assault. Ideally, assault boats are fast, are painted a plain
color, and give the pilot an unobstructed vlew In all directions. For
example, the Baltlmote Reld office boat shown in the prevlous
photograph has a top speed of 45 knots, Is painted gray, and has an
open cockpit.

       However, the purchase and maintenance of boats is an expense
that each field office must bear using its discretionary funds. Because
field offices must bear the expense of any boat, there is no uniformity
in the distribution of the boats, and there are no readiness standards
to determine maintenance intervals. For example, the Baltimore field
                                  - 30 -
                    REDACTED AND UMCLASSIRED
                     REDACTED AND UNCLASSIFIED

ofice has three boats, all of which were provided a t no cost from the
Coast Guard, which was discarding them as surplus. During training
we observed, the Baltimore boats had several mechanical problems.
As a result, one boat could not run at full speed.

Hostage Rescue Team

      The FBI's HRT is the FBI's most capable and best-equipped
counterterrorism team. The HRT is the FBI's only tactical team with
full maritime capabilities. Created in 1982, the HRT is trained to
rescue U.S. citizens or others who may be held illegally by a hostile
force, either terrorist or criminal. I n the years it has been operational,
the HRT has never responded to an incident in the maritime domain.
The HRT is a full-time assignment, its members are trained in the
methods and tactics that will be used in responding to a terrorist
incident in the maritime domain.

HR T Capabilities

       The HRT's equipment and tactics are more advanced than the
FBI's field office SWAT teams. The HRT's capabilities are also more
advanced because its operators (assault and sniper teams) serve full-
time and train daily. HRT operators are assigned to one of three
teams, one of which is a designated maritime team. The three teams
rotate through three 60-day cycles: training, operations, and support.
During the training cycle, the team refreshes its skills and takes part in
exercises. During the operations cycle, the team is available for
deployment. During the support cycle, the team works on special
projects and maintains the HRT's equipment.

       One of the chief capabilities that distinguishes the HRT from the
FBI's SWAT teams is its ability to "fast rope," a technique where the
assault team rappels from a helicopter. This technique is particularly
useful for assaulting a maritime target because it allows the FBI to
rapidly place a team aboard either a stationary or moving vessel.
However, this advanced skill requires great coordination between the
helicopter pilots and the assault teams, thus making it practical only
for a full-time team.




                                   - 31 -
                     REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

             The HRT Fast Roplng During an Exercise
                  -




      Source: OIG photo

 I      I n addition to fast mphg, the HRT also possesses addltlonal
capabilities in the maritime domain, including advanced "breaching"
capabllltles - the ability to circumvent locked doors aboard a ship -
a i ~ dshipboarding capabilities. The HRT has three boats outfitted for
maritime assaults, most of which have been upgraded since 2004.
 he HRTr boats are similar In size $0 Baltimore's boats, but their
engines are twice as powerful.

      The HRT also has a maritime team, which has additional
maritime capabilities, including subsurface diving, closed-ci rcuit diving
(scuba gear that does not emit bubbles), and combat swimming. All
operators on the maritime team are military trained In closed-clrcuit
d/ving and combat swimming. In addltlon, the maritime team assault
element has an operator who is qualified to pilot a freighter.


                                  - 32 -
                    REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCIASSIFIED

       HRT officials said the team's ability to respond to a maritime
incident is unparalleled in the federal law enforcement community
because it trains nearly continuously with helicopter- based assaults in
a variety of environments, including low light, no light, and onto oil
rigs. HRT officials said that while the team may not constantly train
directly in the maritime arena, it conducts exercises weekly that build
the skills needed for the maritime environment, such as close-quarters
battle, room entry, helicopter piloting, and fast roping. HRT officials
do not believe there is a need to be on the water in order to prepare
for incidents in the maritime domain. For example, they said that the
same principals for close-quarters battle that apply on land also apply
a board a vessel at sea. HRT officials said that the biggest difference in
a maritime assault, compared to land, is how the team is delivered to
an incident. Once a t the site, the team uses the same procedures and
tactics it would on land.

      I n addition to training, the HRT also conducts research on
targets of terrorist attacks and develops methods to overcome any
challenges posed by these targets. For example, the HRT is constantly
doing research on how aircraft and ship doors work and how they can
most effectively be breached.
Hazardous Devices Response Unit

       Established in 2004, the FBI's Hazardous Devices Response Unit
is responsible for successfully resolving an incident involving a WMD,
including incidents that occur on board ships. The mission of the
HDRU is to provide technical response teams to find the WMD device,
gain access to the device, and diffuse it. Two FBI officials, the Director
and the Executive Assistant Director for Counterterrorism and
Counterintelligence, have the authority to order the HDRU to deploy.

      The FBI's approach to WM D incidents is similar to its approach to
other tactical responses: personnel from FBI field offices are the first
responders, and national level assets respond only when the incident
exceeds local response capabilities. The FBI's field offices have over
140 agents who have been trained as bomb technicians. These
technicians are typically the FBI's first responder to any incident that
may involve a WMD. If    a bomb technician decides the incident
exceeds local capabilities, the field office coordinates with FBI
headquarters to arrange for the HDRU to deploy. Deployment of the
HDRU may also be intelligence driven. I f the FBI becomes aware of a



                     REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

terrorist threat that may involve a WMD, the FBI coordinates with the
National Security Council and the affected FBI field office t o deploy the
HDRU. Once a WMD incident is resolved, (that is, the device is
rendered safe), teams from the Departments of Defense and Energy
are responsible for disposing of the device.

       Because Customs and Border Protection is responsible for
inspecting cargo that enters the United States, its inspectors are often
the first to encounter cargo that may potentially include a WMD.
According to CBP and FBI officials, an alarm by a radiation sensor is
the most common terrorism-related suspicious incident CBP inspectors
encounter a t seaports. CBP inspectors have been directed to resolve
all radiation alarms. Often inspectors can resolve the alarms
themselves by using a vessel's manifest and other shipping documents
to identify legitimate cargo that emits radiation. If the inspectors
cannot identiv legitimate cargo that is the source of the radiation,
they use other CBP resources to attempt to identify the radiation
source. I f these resources do not allow the inspectors to identify the
source, the CBP contacts the FBI or the DHS, Immigration and
Customs Enforcement. I f CBP can exclude any potential link to
terrorism or threat to the United States, it refers the incident to the
Immigration and Customs Enforcement. However, if CBP cannot
exclude terrorism, it contacts the FBI for assistance.

       Both FBI and CBP officials had positive views about the two
agencies' coordination in responding to potential WMD incidents at
seaports. They said the coordination required between the two
agencies centers on intelligence sharing and notification in the event of
a threat or incidents. Officials from both agencies attributed the high
level of coordination primarily to the distinct roles of the two agencies.
Officials from both agencies agreed that CBP's role is primarily
inspections and the FBI's is primarily investigation. CBP and FBI
officials also agreed that the 31 CBP representatives in the FBI's JUFs
helped increase coordination a t the local level. Officials from both
agencies could not remember an incident in which there was any
confusion about the role of the two agencies, nor could they recall any
joint responses where there were any incident command conflicts
between CBP and the FBI.

      HDRU officials said the maritime domain presents unique
challenges for resolving a potential W M D incident. Aside from the
challenges of delivering the HORU team and its equipment t o a ship in



                     REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

open waters, HDRU officials said the logistics of searching a ship and
the limitations of nuclear detection equipment were the two primary
challenges.

      Container ships are difficult to search. For example, in
September 2002, the HDRU's predecessor responded to an incident
aboard the container ship Palermo Senator. The Coast Guard had
diverted the Palermo Senator to Elizabeth, New Jersey, after radiation
was detected aboard the ship. The Coast Guard, the Port Authority of      '


New York and New Jersey, the Department of Energy, and the FBI's
Newark field office all responded to the incident. The National Security
Council asked the Department of Defense to send a WMD team. The
HDRU's assignment was to search the ship and identify the source of
the radiation. Once inside the ship, the HDRU team found the vessel
very difficult to search because there were 1,200 metal shipping
containers stacked one on top of another, both above and below deck.
The search took about a day, and the team did not find anything
dangerous or locate the source of the radiation initially detected.

       I f the team would have located a radiation source deep within
the stacks of containers, it would have been difficult for the team to
access the problem container. Starting with the accessible container
closest to the one emitting radioactivity, the team would have had to
repeat the following process until it reached the target container: cut
into the accessible side of the container, empty its contents, and cut
out the opposite side. HDRU officials said they regularly practice
cutting shipping containers to be ready for this type of emergency.
Searching vessels is also difficult because many commonly shipped
products, especially in large amounts, can give off radiation in
detectable amounts. For example, large amounts of cocoa powder
produce a detectable amount of radiation.

       Nuclear detection equipment has limitations. The HDRU's
equipment cannot detect every type of nuclear device that could be
placed within a ship's cargo hold. Nuclear devices can be shielded in
an effort to avoid detection, and thus the HDRU's detection equipment
will not identify it. Even after a thorough search of a ship with its
detection equipment, the HDRU cannot guarantee that a ship does not
contain a nuclear device. This lack of certainty does not provide FBI
managers or other responsible officials with much comfort. For
example, during the Palermo Senator incident, the special agent in
charge of the Newark field office wanted to be absolutely certain that



                    REDACTED AND UNCLASSIFIED
                   REDACTED AND UNCLASSIFIED

none of the containers on board the ship contained a nuclear device,
but the HDRU could not give him that assurance. HDRU officials also
said the only way to attain that certainty would be to open and inspect
the contents of every container on the ship. HDRU officials said the
most likely method for conducting such a search would involve using a
crane t o remove the containers and individually searching them. This
method is time consuming, likely taking weeks to complete, and
presents additional challenges. For example, officials are unlikely to
want to keep a ship in port that is suspected of having a WMD aboard.
It would take a second ship and special equipment to perform this kind
of search a t sea.

Capability-Based Planning

      The HRT has not fully assessed the capabilities it needs to
counter threats or incidents in the maritime domain. The MOTR calls
for the Departments of Defense, Homeland Security, and Justice to
develop a plan t o provide an immediate and "deliberate" response to
maritime threats, including multiple simultaneous attacks. The FBI
has not assessed the terrorism scenarios most likely to occur in the
maritime domain or the required time for a tactical response to resolve
those scenarios.




                                 -   36 -

                    REDACTED AND UNCtASSIFIED
REDACTED AND UNCLASSIFIED




REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED




HRT's plans call for it to deploy on its own within a 600-mile radius of
the National Capital Region. The HRT official said that the range of the
current HRT helicopters is limited, which affects the range in which the
team can self-deploy.

Maritime Operational Threat Response Plan

       The Maritime Operational Threat Response is one of eight
implementing plans detailing how the U.S. government will develop
the capabilities needed to fulfill the National Strategy for Maritime
Security. The MOTR describes the government's plan to respond to
terrorist threats in the maritime domain, including the roles of the
different federal agencies, protocols for lead and supporting agencies,
and the need for additional planning. It calls for specific operating
plans outlining how lead agencies will fulfill their responsibilities. The
MOTR endorses capability- based planning, calling for all plans t o
assess the capabilities needed to meet the plan's requirements and
identify any gaps.




                                   - 38 -

                     REDACTED AND UNCLASSIFIED
REDACTED AND UNCLASSIFIED




           - 39 -
 REDACTED AND UNCLASSIFIED
REDACTED AND UNCLASSIFIED




          - 40 -
REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED




       The plans are intended to ensure that MOTR agencies have the
capability to operate as a team "against the spectrum of expected
security threats." To achieve this, the MOTR calls for security forces to
have a high degree of interoperability, reinforced by joint interagency
training and exercises.

       We believe that the MOTRfs efforts to clearly delineate the roles
of the FBI and the Coast Guard in responding t o terrorist threats and
incidents help meet an existing policy void. Officials a t the FBI and the
Coast Guard both agreed that the MTSA may have created some
overlapping responsibilities. At the headquarters level, we found that
the FBI and the Coast Guard both want the ability to respond to
terrorist threats in the maritime arena. FBI omcials said they were
unsure of the MSSTs' mission and capabilities. They also said that
planned enhancements to the Coast Guard's tactical capability are
redundant and may result in reduced funding for the FBI, thereby
weakening its currently tactical capabilities. We are also concerned
that any competition for funding could erode interagency cooperation.
W e found indications that the relationship between the FBI and the
Coast Guard may already be strained. Early in 2005, as part of its
efforts to develop its tactical response teams, Coast Guard and FBI
officials met, and the Coast Guard requested further information on
the selection criteria the FBI uses for SWAT teams and the HRT. The
FBI responded to the Coast Guard's written request by stating that
that the FBI would not be able to assist the Coast Guard until the two
agencies' roles in responding to terrorist threats and incidents had
been clearly defined and "are not competing for the same resources."

      The Coast Guard and the FBI also have different opinions about
the level of cooperation between the two agencies at TOPOFF 3, a
DHS-sponsored exercise to assess the nation's capacity for preparing
for and responding to terrorist attacks involving WMD. HRT
representatives said the exercise showed the two agencies' ability to
respond In a coordinated fashion. The HRT took part in one of the
incidents of the exercise, a scenario that called for the team to assault
a 200-foot moving ferry off the coast of Connecticut. A boat and



                     REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

helicopters were used to transport the team to the ferry. The Coast
Guard supported the HRT in the TOPOFF 3 exercise by providing
search and rescue services. According to FBI officials, the Coast Guard
could not participate in the boarding because it has a very limited
capability to perform boardings when its boarding team faces armed
resistance. FBI officials also noted that the Coast Guard does not train
its personnel t o board vessels that are underway.

      Coast Guard officials disagreed with the FBI's analysis of
TOPOFF 3, saying that the FBI guarded its territory as the lead federal
agency for terrorism. One of the Coast Guard's goals for TOPOFF 3
was to exercise its new tactical assault team, called an Enhanced
Maritime Safety and Security Team. However, Coast Guard officials
said the FBI repeatedly blocked the Coast Guard's efforts, saying the
FBI was the lead federal agency in the scenarios developed. The
Coast Guard ultimately changed the scenario to circumvent the FBI's
lead federal agency role.

       Prior to the release of the MOTR, officials from both the FBI and
the Coast Guard agreed that the MOTR should resolve jurisdictional
issues. However, the MOTR issued in October 2005 is an interim plan,
which FBI officials say does not define the roles of the FBI and the
Coast Guard as clearly as they would like. They said they will work
with the interagency Maritime Security Working Group to ensure that
the final version of the MOTR more clearly articulates the respective
roles and authorities of each agency. The FBI is concerned that the
final MOTR does not conflict with any of the FBI's statutory authorities.

      We believe a lack of jurisdictional clarity could hinder the FBI's
and the Coast Guard's ability to coordinate an effective response to a
terrorist threat or incident in the maritime domain. Specifically, we
are concerned about how confusion over authorities will affect the two
agencies' ability to establish a clear and effective incident command
structure. I n our judgment, unless such differences over roles and
authorities are resolved, the response t o a maritime incident could be
confused and potentially disastrous.

Exercises and Responses

      As with all terrorist incidents or responses t o a terrorist threat,
maritime incidents and responses require the effective cooperation and
coordination of numerous federal, state, local, and private entities -



                    REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

issues that exercises and after-action reports are intended t o identify.
To measure the FBI's involvement in the maritime domain, we asked it
to provide a list of maritime exercises in which its various units and
field offices had participated between FYs 2002-2005 and the
corresponding after-action reports. The FBI named nine maritime-
related exercises it was involved in during the period, and we
subsequently identified another five.

       The FBI recognizes the value of after-action reports, calling them
critical in identifying the areas of crisis management theory and
practice that need improvement. After-action reports can provide
important insight into the strengths and weaknesses in training and
preparedness as well as assist the FBI in identifying and disseminating
lessons learned and best practices. The FBI's Manual of Investigative
Operations and Guidelines (MIOG) requires FBI divisions to write an
after-action report following any exercise in which the division had a
significant role in the planning and execution. The MIOG also requires
an after-action report after large-scale crisis management operations.
Neither of the terms "significant role" or "large-scale crisis" is defined.
I n addition, the MIOG does not set a due date for preparing an after-
action report.

     The MIOG directs that after-action reports include, a t a
minimum, a discussion of relevant issues of the following areas:

         command and control,

         operations,

         support,

         communications, both oral and written, and

         significant lessons learned.

      The MIOG also requires each field office to submit an annual
report every January 15 on the following crisis management activities
that occurred during the previous calendar year:

         instances in which it activated the field office's crisis
         management team; and




                       REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCLASSIFIED

            significant lessons learned from exercises, special events, and
            operations, including supporting after-action reports.

       Because the FBI's list of nine maritime exercises appeared to
have been formulated through personal recollection, we believe it may
have undercounted the number of maritime exercises in which it
participated. To verify that the FBI had identified all of its maritime
exercises, we asked for copies of the 56 field offices' annual crisis
management annual reports for 2004. However, we were not able to
use these reports to identify all of the maritime exercises because 20
percent of the FBI's field offices did not submit an annual crisis
management report.

      Of the 45 field offices that submitted the report, the FBI
determined that 10 field offices reported on maritime exercises. Of
those 10 offices, the FBI provided the after-action reports for only 2
offices.ll Through the reports of those 10 offices, we identified an
additional nine maritime-related exercises. I n addition, we identified
one incident in which the FBI prepared an after-action report. Of the
19 maritime-related exercises, special events, and operations, the FBI
submitted FBI-authored after-action reports for only 6, and we
concluded that reports were not prepared for the remaining 13.12 Most
of these six were joint exercises involving the FBI, the Coast Guard,
and other elements of the DHS such as CBP.

       Most of the issues identified in the nine after-action reports were
operational rather than legal in nature. Seven of the nine after-action
reports included an objective- by-objective assessment of the exercise
or identified issues that emerged from the exercise, event, or
response. For analytical purposes, we divided the operational issues
identified in those seven after-action reports into four categories:
communication, adequacy or coordination of resources, command and
control coordination, and jurisdiction or authority.

            Five of the seven reports identified communication issues,
            including problems with radio and cellular phone

       11
          The FBI also provided an after-action report for a maritime-related special
event from a field office that did not submit the crisis management report.
       l2
           Multiple FBI entities prepared affer-action reports for the Arctic Strike
exercise and the search of the Palerrno Senator, so the total number of after-action
reports for the six exercises, special events, and incidents was nine.
                                         - 44 -

                        REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

         communications, and failure to share intelligence with tactical
         assault teams.

         Five of the seven reports raised concerns with the adequacy
         or coordination of resources, including too few SWAT and
         command center personnel, and interagency efforts to
         preserve evidence.

     w   Four of the seven reports voiced concerns to coordinate
         effectively in a command and control environment, most
         notably issues about the crisis response plan, such as
         personnel not being knowledgeable about the plan or the plan
         not covering key issues.

         Three of the seven reports discussed issues concerning
         jurisdictional authority, such as determining the federal
         agency with lead decision-making authority in an interagency
         response. Also, one after-action report indicated the Coast
         Guard participants were unclear about the FBI's authority to
         board a suspect vessel using a Coast Guard vessel.

      The CIRG's Crisis Management Unit has not used the lessons
learned cited in the field offices' critical incident annual reports to
review FBI crisis management policies and practices and disseminate
best practices to the field offices. Therefore, no maritime best
practices have been disseminated. According to the acting unit chief
of the Crisis Management Unit, the unit had not been able to conduct a
comprehensive review of the after-action reports because the FBI does
not have a standardized format for them, making a meaningful
analysis difficult.

      To address the lack of a standardized format, the Crisis
Management Unit has undertaken a review of after-action report
formats, both internally and externally. The Crisis Management Unit
said it plans to obtain input from the field omces' Crisis Management
Coordinators before deciding on the FBI's new affer-action report
format, which it intends to be Intranet-based.

      I n addition, the Special Agent Advisory Council has begun a
"Lessons Learned Program," to synthesize and distribute best
practices, thereby enhancing the FBI's operational effectiveness and
saving lives, time, and money. This program has targeted after-action



                    REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

reports as a primary source of potential lessons learned. The FBI
plans to use an online database and search system, available free of
charge from the U.S. Marine Corps, as a repository for materials
containing lessons learned. Users will be able to search the repository
and participate in forums on key topics.

Conclusion

      Given the somewhat limited and varying maritime capabilities of
the FBI's field office SWAT teams, we believe the FBI should inventory
these capabilities as part of the operations plan it must develop to
support the implementation of the Maritime Operational Threat
Response. To be useful, the operations plan should also examine
high-risk scenarios, determine the required response time, and
evaluate how FBI resources would address the scenarios. Since the
timing of terrorist attacks is uncertain, the FBI and the
Coast Guard should increase cooperation and coordination as soon as
possible and not wait for the final version of the MOTR to resolve any
concerns over the roles and authorities of each agency. We believe
that the FBI should review its 1979 MOU with the Coast Guard to
determine if it accurately reflects both agencies' understanding of the
roles and responsibilities of each agency. If the two agencies find that
the MOU does not accurately describe the current environment, they
should replace it with a new one that more accurately reflects current
roles and responsibilities. We also believe that additional joint FBI-
Coast Guard exercises wou Id help improve coordination between the
two agencies and highlight any jurisdictional, communications, or
incident command issues the two agencies need to resolve.

       Complete and timely analyses of maritime exercises and
incidents are important t o identify and correct barriers to a successful
response to a maritime terrorism threat or incident. The FBI's
requirement that field offices submit annual critical incident reports is
a positive step forward. However, we are concerned that the CIRG has
not made it clear which incidents must be reported, developed a
standard after-action report format, or determined a due date for
after-action reports. All of these steps are necessary before the CIRG
can provide meaningful feedback on the FBI's crisis management
policies or disseminate lessons learned, including lessons learned in
the maritime environment.



                                 - 46 -
                    REDACTED AND UNCLASSIFIED
                  REDACT€ 0 AND UNCLASSIFIED

Recommendations

    We recommend that the FBI:

    8. Ensure that the FBI's MOTR operations plan examines high-
        risk scenarios, determines the required response time, and
        evaluates how FBI resources would address the scenarios.

    9. Establish a requirement for joint FBI/Coast Guard exercises
        in field offices assessed as having high-risk seaports.

    10. Resolve potential role and incident command conflicts in the
        event of a maritime terrorist incident through joint exercises
        and, if necessary, a revised and broadened MOW with the
        Coast Guard.

    1I. Prepare after-action reports after all maritime-related
        exercises and use the reports to identify and disseminate
        lessons learned and best practices.

    12. Ensure that all field offices submit critical incident reports to
        the CIRG by January 1 5 each year; require the FBI's
        Maritime Security Program, in consultation with the CIRG, to
        use the reports to conduct maritime-specific reviews of the
        FBI's crisis management policies and practices - including
        any requirements for field office crisis management plans -
        and to disseminate maritime-related lessons learned and
        best practices.




                                - 47 -
                   REDACTED AND UNCLASSIFIED
                   REDACTED AND UNCLASSIFIED

Finding 3: Scope of the Maritime Threat

     The F 8 I has not performed a comprehensive written assessment
     of the risk of the terrorist threat facing the nation's 361
     seaports, nor did it provide us with any assessment conducted
     by its intelligence community or law enforcement partners that it
     has relied upon in developing its maritime counterterrorism
     strategy. Such an assessment would be important in defining
     the nature, likelihood, and severity of the maritime threat. It
     would also allow FBI managers and others to make more
     informed choices about the resources needed for programs and
     initiatives aimed not only a t combating the threat of terrorism a t
     seaports and the maritime domain in general, but also directed
     a t other critical infrastructures. Since 2003, the FBI has
     conducted an annual general assessment of the terrorist threat
     to the United States. As of January 2006, the 2005 assessment
     was in draft. However, neither the 2004 nor draft 2005
     assessment ranked the various tactics and targets of terrorists,
     so FBI managers could not use the assessments to allocate
     relative resources to the various initiatives intended to prevent
     terrorism in these segments, including the maritime domain.

     The FBI collects some information that may help it assess the
     potential scope of the maritime threat, including intelligence
     collection requirements, the number of disseminated FBI
     intelligence products, and the number of threats and reports of
     suspicious activity. The FBI has identified five intelligence
     collection requirements applicable to the maritime domain.
     However, it has not monitored Its progress in addressing its
     maritime-related collections requirements. I n the 4 years since
     the 9/11 terrorist attacks, the F81 has disseminated 38
     maritime-related intelligence products to its intelligence and law
     enforcement partners. While the FBI has created the Guardian
     Threat Tracking System (Guardian) to manage the resolution of
     threats and suspicious incidents, this system is neither easily
     searchable nor a useful tool for identifying trends in types of
     incidents. As a result, during our audit the FBI could not identify
     the number of maritime-related threats from 2002 to the
      present.




                                 - 48 -
                    REDACTED AND UNCIASSIFIE0
                     REDACTED AND UNCLASSIFIED

Comprehensive Assessment of the Threat

      The FBI has not performed a comprehensive written assessment
of the risk of the terrorist threat facing the United States' 361
seaports. Senior FBI officials with whom we spoke disagreed about
the role of the FBI in assessing the terrorist threat faced by the
nation's seaports. Some said such a threat assessment was the
responsibility of the Department of Homeland Security and others said
the FBI would conduct such an assessment as the Maritime Liaison
Agent program, discussed in Finding 1, matures.

       The 9/11 Commission has expressed concern both about the
capabilities of the Transportation Security Administration (TSA) to
perform comprehensive threat assessments and the need for the
intelligence community to produce assessments that can guide the
allocation of counterterrorism resources. Specifically, the 9/11
Commission Report discussed the TSA's failure t o develop a strategic
plan that analyzes assets, risks, costs, and benefits. I n the absence of
such a plan, the Commission said it was not convinced that the
nation's transportation security resources are being allocated to the
greatest risks, noting that "... opportunities to do harm are as great, or
greater, in maritime or surface transportation" than they are in
aviation. The Commission recommended that the federal government
identify and evaluate the transportation assets that need to be
protected and set risk- based priorities for defending those assets.

       I n 2004 congressional testimony, a 9/11 Commissioner stated
that it is important for the intelligence community "to outline the risks,
and to identify, to the extent that they can, the capabilities that they
see on the part of terrorists. Had that been done prior to 9/11 - had
there been a sweep, for example, of all of the intelligence that we had
about the intentions and capabilities of terrorists to utilize airplanes as
missiles - we could well have configured the way in which we defend
ourselves more effectively."

      The Commissioner also cited the need to assess the threat of
maritime terrorism, "The same is true with respect to maritime
security. We only have to look at the Cole. We know that terrorists,
and al Qaeda in particular, have identified maritime avenues for
threatening U.S. interests. The question is where do you rank these
threats? Our intelligence community is assigned the task of identifying
and ranking risk."



                     REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFlED


      During that same hearing, another 9/11 Commissioner stated,
"One of the frustrations in our investigation was as we looked and
looked through the various agencies, we found no real overview, no
strategic analysis that has been done as t o relating the levels of risk
from which you could plan and allocate a reasonable proportion of
resources ."

       Although the FBI does not have a direct role securing seaports -
for example, it is not the FBI's responsibility to ensure ports comply
with federal security requirements     -the FBI is the lead federal agency
for preventing terrorism and responding to terrorist incidents.
Because maritime transportation is vulnerable t o terrorist attacks, the
FBI devotes resources to the maritime domain. However, we believe
that the amount of those resources should be threat and risk driven.
While there is no clear directive for the FBI to conduct a
comprehensive threat and risk assessment of maritime terrorism, we
believe the FBI needs such an assessment either conducted by it or
another agency in the intelligence community to guide its allocation of
resources. During the course of this audit, the FBI did not provide us
with any comprehensive assessment of the threat and risk of maritime
terrorism or demonstrate to us that it used such an assessment to
allocate resources to the maritime domain.

      While the FBI has not conducted a comprehensive threat and
risk assessment of maritime terrorism or the transportation sector in
general, we examined the following FBI intelligence products, plans,
and databases that could be used to help inform FBI managers about
the levei of risk of maritime terrorism and the resources dedicated to
it:

         the FBI's annual comprehensive terrorism threat assessment,
         commonly referred to as the national threat assessment;

         maritime-related FBI intelligence products disseminated to
         the intelligence community;

          FBI intelligence collection guidance; and

          FBI data on terrorist threats and suspicious activity.



                                   -   50 -

                     REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED

    National Threat Assessment

           Tn a 2002 audit of the FBI's counterterrorism program, the OIG
    found that the FBI had not conducted a comprehensive written
    assessment of the risk of the terrorist threat facing the United States.
    The FBI's efforts to conduct such an assessment, entitled FBI Report
    on the Terrorist Threat to the United States and A Strategy for
    Prevention and Response did not: (1) provide information to assist
    FBI management and other government managers in developing
    counterterrorism strategies and programs and allocating resources on
    a priority basis, (2) identify critical intelligence requirements, or
    (3) make recommendations to any level of FBI management. We
    noted that the lack of recommendations in the FBI's report
    underscored the fact that the report was not an assessment.13
    Because the FBI had not completed a systematic written assessment
    of the most likely terrorism scenarios - taking into account terrorist
    methods, capabilities, and intent - we expressed concern that it may
    not have fully identified the specific nature of the threat so that it
    could focus its attention and resources to prepare adequately and
    respond effectively. Further, we noted that determining what
    scenarios are most likely to occur in a comprehensive and more formal
    manner would better position the FBI to meet its new counterterrorism
    priority.

          Since 2003, the FBI has conducted an annual assessment of the
    terrorist threat to the United States commonly referred to as the
    National Threat Assessment ( N T A ) . ' ~AS of December 2005, the 2005
    NTA was still in draft. The FBI's Deputy Assistant Director for
    Counterterrorism Analysis said the 2005 NTA had not been released
    because a National Intelligence Estimate with a similar scope was
    being prepared and the FBI wanted to ensure that the 2005 NTA was
    closely aligned with that document. However, we reviewed the 2004
    and the draft 2005 NTA assessments and found that neither ranked
    the targets and tactics of terrorists. As a result, FBI managers could
    not use the assessments to allocate resources among the initiatives
    aimed a t preventing terrorism in various critical infrastructures and
    segments of the economy, including the maritime domain.

            l3
              Federal Bureau of Investigation. FBI Repoit on the Terrorist Threat to the
    United States and A Strategy for Prevention and Response, August 2001.
            l4
                 Federal Bureau of Investigation. The Terrorist Threat to the US Homeland:
    An   FBI Assessment, April 2004.
                                             -   51   -
1                             REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED


      However, the 2004 NTA includes an eight-page assessment of
the tactical trends of al Qaeda and other extremists. This section of
the assessment addresses five topics, including two specific types of
targets: civil aviation and maritime. I n addition, it makes the
following observations and assessments a bout three tactica I topics:

         Al Qaeda has shifted its attacks toward less-protected targets,
         because attacks against these soft targets require less
         logistical support and greater flexibility in target selection.

         Terrorists are constantly innovating, finding new ways to
         circumvent security measures, and build more threatening
         bombs.

         Terrorists are tenaciously pursuing chemical, biological,
         radiological, or nuclear weapons and may attempt to use
         them against the United States within the next 3 years.

      The 2004 NTA's assessment of al Qaeda's maritime intent and
capability is one of five topics discussed. It notes that a1 Qaeda has
temporarily abstained from maritime attacks, and it attributes the lack
of attacks to the arrest of key operatives. Based on suspicious activity
reports and the vulnerability of ports, it concludes that al Qaeda will
resume its maritime strategy. The NTA names vehicle-born
improvised explosive devices as the type of weapon that al Qaeda will
most likely use for a maritime attack, and cites maritime facilities,
infrastructure, merchant vessels, and warships as the most likely




      The NTA uses a three-tiered classification to rank the threat
posed to the United States by known terrorist groups. This
classification system allows FBI and other government officials to-



                    REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCLASSIFIED

       However, the NTA does not use a similar system t o rank tactics
or targets. Instead, the FBI uses phrases such as "most favored" and
"remains committed to" to describe the likelihood of terrorist use of
various tactics. For example, it says that al Qaeda remains committed
to using commercial aircraft in future attacks. Unlike the ranking of
terrorist groups, FBI managers cannot use the narrative descriptions
to compare the relative risk of attack using various tactics. I n
addition, the narrative descriptions do not discuss all potential terrorist
tactics. Because the narrative descriptions of tactics and targets do
not allow for a relative comparison, they may not provide a sufficient
basis to allow the FBI to allocate resources according to the various
terrorist tactics and methods.

Disseminated Intelligence Products

       The FBI has three primary intelligence products: intelligence
assessments, Intelligence Information Reports (IIR), and intelligence
bulletins. Intelligence assessments may be either strategic or tactica I.
Strategic assessments support FBI-wide programs, plans and
strategies or provide information to policy makers. Tactical
assessments support FBI cases or operations, or cover specific threats.
IIRs contain single-source intelligence that the FBI has not deeply
evaluated. Intelligence bulletins are unclassified descriptions of
significant developments or trends.

        Between FYs 2002-2005,the FBI disseminated a total of 38
intelligence products which, to varying degrees, discussed maritime-
related t e r r o r i ~ m . ' ~For example, one intelligence bulletin discussed
how terrorist groups could use combat divers to attack the
United States, while another intelligence bulletin issued by a field office
discussed terrorist issues in that field office's territory and inchded
only data on the number of maritime suspicious incidents it had
received in the last month.




       l5 The FBI provided us with 41 disseminated intelligence products that it said
were maritime-related. However, 38 were applicable to our audit. The remaining
three dealt with other issues such as the country's water supply. I n addition, during
the course of our audit, the FBI provided us with two additional assessments that
discussed maritime terrorism but the FBI did not include these products in its list of
maritime-related disseminated intelligence products.
                                       -   53 -

                        REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASSIFIED




ken..,
         Disseminated FBI Intelligence Products that Addressed



    Intelligence
    Assessment
                    1
                 Maritime Terrorism, FYs 2002-2005

                          272                20;3       294           2005
                                                                        0

                                                                        3
    I nfor mation


I
    Intelligence
    Bulletin         I               1
                                         -31
                                           I
                                                          4
                                                                  I
                                                                        9
                                                                                 i

          Source: OIG analysis of FBI data

           The Newark and Chicago field offices issued 9 of the 16
    intelligence bulletins the FBI provided. While the intelligence bulletins
    issued by the CTD focused on seaport security and maritime issues,
    the intelligence bulletins issued by the two field offices were
    summaries of all terrorism activity that contained limited maritime
    information, usually the number of maritime-related threats received
    by the office in the last month. Although the amount of maritime
    information in these intelligence bulletins was limited, we believe the
    concept of providing trend data to local law enforcement and
    intelligence partners is worthwhile because it provides information
    about the current threat environment. However, we have three
    concerns about such bulletins.

              There is no FBI policy requiring field offices to issue regular
              intelligence summaries to federal, state, and local partners in
              their territory. The FBI provided intelligence bulletins from
              only 2 of its 56 field offices and, combined, these intelligence
              bulletins covered only 5 months. The Newark intelligence
              bulletins began in April 2005 and appeared to be ongoing a t
              the time of our audit. The Chicago intelligence bulletins
              appear to have been limited to 2 months in 2004.

              The frequency and content of the intelligence bulletins varied,
              and the suspicious incident categories used by each field
              office also varied. While we recognize that individual field
              offices may have the need to highlight areas t h a t other field
              offices do not, we believe that standardized categories would
              be helpful in allowing FBI managers to compare the activity of
                                         - 54 -
                          REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

         different offices. The table below summarizes the differences
         in frequency and content between the intelligence bulletins
         produced by the Chicago and Newark field offices.

          Frequency and Content of Chicago and Newark
                          Intelligence Bulletins

              -     -
                             Chicaqo             - Newark
~ r e uency
      q                      Monthly               -
                                                   -
                                                    Weekly
Data sources                 Guardian database      FBI intelligence
                                                    assessments and IIRs;
                                                    Department of Defense
                                                    reporting Terrorism
                                                    Situation Reports, DHS
                                                    intelligence bulletins
                                                    and intelligence
                                                    assessments; Guardian
                                                    database; and a list of
                                                    upcoming significant
                                                 - dates      -    -      -
~ u s p i c i o i sincident  8 to 9 types           2 1 types and 22
categories                                 -   -
                                                    geographic areas
                                                                 -

Suspicious incident          Ai rports/a ircraft    Aviation
categories in common Chicago Transit                Rail
                               Authority Rail       Government building
                             Federal facilities     Maritime
                             Maritime
                            --

Detailed description of Yes
suspicious activities,
inctudinq
- -            status
      Source: OIG analysis of FBI data

         It was not clear that the field office intelligence bulletins had
         been disseminated to the FBI's maritime partners. For
         example, the Newark intelligence bulletins included a
         distribution list, and neither the Coast Guard nor the Area
         Maritime Security Committee was included on the list.16 The
         FBI must ensure that its intelligence products reach all

      l6 These Coast Guard-sponsored committees were mandated by the Maritime
Transportation Security Act of 2002. See Finding 1 for a detailed discussion.

                                     - 55 -
                        REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED

          relevant federal, state, and local law enforcement and
          intelligence entities.

       I n our judgment, summary field office intelligence bulletins are a
significant opportunity for the FBI's field offices to share with their
partners a snapshot of the local threat environment. We believe each
field office should publish summary intelligence bulletins using a
standard format that specifies the content, frequency, and distribution
of the intelligence bulletins.

       Of the 38 maritime-related intelligence products the FBI
provided us, 29 (76 percent) dealt solely with maritime terrorism. Of
those 29, 55 percent were IIRs. As shown in the following table, I I R s
were most likely to cover threats about WMD or terrorist attacks
against specific targets or cities. While the intelligence assessments
and intelligence bulletins varied in scope, they normally focused on the
maritime tactics terrorists may employ. Specifically, 85 percent of
these products focused on diving, infiltration, small boat attacks, and
mines (including improvised explosive devices). One target,
passenger ferries, received substantial attention. Over 80 percent of
the intelligence assessments focused on the maritime capabilities of a
specific terrorist group. Over one-third of the finished intelligence
products focused on just two potential tactics: attacks by scuba divers
or combat swimmers and infiltrating the United States by various
methods. For example, although terrorists have indicated a strong
desire to use a weapon of mass destruction (WMD) and vessels can be
used to transport a WMD for detonation in a port or elsewhere, none of
the FBI's finished maritime-related intelligence products assessed the
potential use of smuggling a WMD aboard a ship.17




        l7 Finished intelligence products, such as intelligence assessments and
intelligence bulletins, are developed from multiple sources and fully addresses an
issue or threat. I n contrast, raw intelligence, the type of information in most IIRs, is
unevaluated information, generally from a single source.
                                         - 56 -
                         REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED

                     Characteristics of FBI Maritime
                 Intelligence Products, FYs 2002-200Sa

Topic             1   Intelligence             IIRs      lntemgence              Total
                      Assessments                          Bulletins
Divers                       2                  2                3                  7
Infiltration                 2                  3                1                 6
Improvised
explosive                   2                   1                1                  4
deviceslmi nes
Small boat
                            1                   I                2                  4
attacks
Ferries                     1                   2                1                  4
                                       r
Group-
specific
                            5                   1                0                  6
WMD               1         0                   6                0                  6
Target or
target-city                 3                   5                0                  8      I
specific
    --
Data on trend               2                   0                0                  2
analysis
                                                        7
micators
Requirements
Other
        Source: OIG analysis
                            2
                            2
                            0        -
                                                0
                                                0
                                                ZA
                                                                  0
                                                                  0      --         6
                                                                                    2
                                                                                    2


        Note: (a) The table includes the 29 disseminated FBI intelligence products ( 6
               intelligence assessments, 16 I I R s , and 7 intelligence bulletins) that
               deal solely with maritime terrorism. Several of these intelligence
               products had more than one of the characteristics listed in this table,
               so the sum of the numbers in the columns does not equal the number
               of intelligence products.




                                           -   b/ -

                          REDACTED AND UNCLASSIFIED
                    REDACT€D AND UNCLASSIFIED




                                                          . ....

bulletins should also provide readers with instructions or points of
contact if they observe someone engaging in a suspicious activity.




Intelligence Requirements




                                  -   58 -

                     REDACTED AND UNCLASSIFIED
              REDACTED AND UNCLASSIFIED




We reviewed the FBI's intelligence collection set for international




                            -   59 -

              REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


Internal Controls for Standing Intelligence Requirements
        Currently, the FBI's Directorate of Intelligence cannot ensure
that the FBI's operational divisions and field offices are addressing the
intelligence requirements in the collection sets, so the Directorate of
Intelligence cannot determine what progress the FBI has made toward
satisfying its maritime-related and other intelligence requirements.
Also, the Directorate of Tntelligence cannot identify what FBI products
meet a certain requirement, so it cannot identify those intelligence
products that discuss maritime terrorism. For the FBI's intelligence
analysts to be able to fully analyze the threat of maritime terrorism,
they must be able to identify all the relevant information the FBI has
gathered on the threat.

        The Directorate of Intelligence is aware of this shortcoming and
has identified three methods that can ultimately be used to ensure
that the FBI's operational divisions and field offices address the
intelligence requirements in the FBI's collection sets. First, the
Directorate of Intelligence is requiring each operational division to
present a "battle plan" that shows how it will address the intelligence
requirements relevant to its work. Second, the Directorate of
Intelligence has begun providing training and guidance on the
importance of citing the requirements with which each intelligence
product responds. For example, the Field Intelligence Operations
Handbook discusses the need for each product to cite an intelligence
requirement. Third, the inspections done by the FBI's Inspection
Division will, in the future, assess an office's contribution to the FBI's
intelligence requirements.

        However, according t o the section chief of the Directorate of
Intelligence's Intelligence Management Section (IMS), his section has
made little progress in implementing these methods or otherwise
monitoring what intelligence requirements are being addressed. The
Directorate of Intelligence recognizes that the FBI also needs to
improve integration of its intelligence requirements, collections, and
production. An FBI official said that generally, FBI personnel need to
understand what the intelligence requirements are, collect information
to meet them, and then ensure that information the FBI collects
against its intelligence requirements is reported to the widest audience
possible.




                     REDACTED AND UNCCASSIFIED
                       REDACTED AND UNCLASSIFIED

       The I M S section chief also said his section is responsible for
monitoring the FBI's progress in addressing its intelligence
requirements. However, he said that IMS's capability is limited by
three factors: (1) all field office personnel need training on the
importance of intelligence requirements and the integrity of the
intelligence cycle, (2) information that satisfies intelligence
requirements needs to be culled from FD-302 interview records and
recordings made under the Foreign Intelligence Surveillance Act of
1978, and (3) reported information (generally IIRs) needs to cite the
intelligence requirement."

       Two other issues, staffing and information technology, affect the
IMS's ability to address these three factors. Many units in the IMS
have 40-to-50-percent vacancy rates, so the personnel necessary t o
systematically evaluate intelligence collection against intelligence
requirements is not available. In addition, the FBI does not have an
information technology tool that allows the I M S to search data
collected by the FBI to identify information that meets a given
intelligence requirement. Currently, the FBI's nascent capability to
search its data to determine if the information meets a specific
intelligence requirement consists of searching : (1) the Automated Case
Support (ACS) system for documents or data that might meet a given
intelligence requirement, and (2) a stand-alone data base of the CTD's
IIRs, by topic, customer, and subject line.

       While the international terrorism intelligence collection set
included 25 observable events related to the maritime domain, none of
the maritime-related intelligence products the FBI disseminated cited
the intelligence requirement or indicator. To determine what
information the FBI has collected a bout indicators of maritime
terrorism or intelligence requirements with a maritime component, the
FBI would have to perform a tedious and time-consuming search of
the cumbersome ACS or the CTD's standalone I I R data base.




           When a witness is interviewed as part of a criminal investigation, FBI
agents use an FD-302 to document what was said during the interview. The Foreign
Intelligence Surveillance Act of 1978 allows for court-approved electronic surveillance
of people suspected of being engaged in espionage or terrorism for a foreign power
against the United States.
                                       - 61 -

                        REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCLASSIFIED

Ad Hoc Intelligence Requirements

        I n addition to the standing intelligence requirements, the FBI
may receive or initiate ad hoc intelligence requirements. Ad hoc
requirements address more immediate needs created by an agency's
tactical operations. For example, after the London subway bornbings
in July 2005, the FBI received ad hoc intelligence requirements related
to those bombings. Regarding maritime terrorism, the FBI has
received intelligence requirements from the Office of Naval
Intelligence, which asked the FBI to collect intelligence on whether
terrorist groups are using maritime methods to transport operatives or
contraband. Ad hoc intelligence requirements are communicated to
the relevant units and offices within the FBI via EC and the "setting of
leads."21 The I M S is the focal paint for ad hoc requirements and is
responsible for setting leads for FBI offices to collect information
against the requirements. The results of the FBI's collection efforts in
response t o ad hoc requirements are reported in IIRs. I f a recipient
(consumer) of an I I R has questions about its content or has additional
ad hoc intelligence requirements, the consumer will contact the author
of the IIR directly and address those questions or requirements. The
Directorate of Intelligence did not initiate any ad hoc maritime-related
intelligence requirements during FY 2005.

      To improve the FBI's intelligence base and ultimately help it
identiw terrorists within the United States, the FBI's NJlTF created
Operation Tripwire in July 2003. Through Operation Tripwire, the CTD
sends local J l T F s tasks or requirements to collect information related
to certain entities. The collection requirements are specific to a threat
and provide information about who or what can provide the
information. For example, one maritime-related Tripwire EC we
reviewed directed a field office t o contact the executive in charge of a
certain line of business a t a particular company. According to the
NJTTF, the ultimate goal of these tasks is to develop a useful set of
indicators for terrorist sleeper cells. The CTD intended for the
requirements t o have a secondary purpose in assisting field office
managers by providing guidance on how to enhance their intelligence
base and more accurately define their technical requirements.




            When an FBI office needs assistance or information from another FBI
office, it "sets a lead" specifying the assistance it needs.
                                       - 62 -

                       REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

Information Management Systems for Intelligence Products
       The FBI does not have an information management system to
store and manage the all of the FBI's intelligence products, but the
Directorate of Intelligence is developing a searchable database for all
the FBI's intelligence products. Currently, all IlRs are stored in the FBI
Intelligence Information Reports Dissemination System. However, this
system does not have any management capability to allow Directorate
of Intelligence managers t o search for an I I R by intelligence
requirement. A new version of this information system, due in
FY 2006, is expected to provide such a search capability.

        While there is no information management system that stores
and manages the FBI's finished intelligence products (intelligence
assessments and intelligence bulletins), the Directorate of Intelligence
maintains an Access database of the terms of reference of all these
products. When analysts start a new intelligence assessment or
intelligence bulletin, they must input the terms of reference - a
description of the approach, purpose and scope of a proposed
intelligence product - into the database. The terms of reference are
then reviewed by the FBI's Intelligence Production Board at its monthly
meeting. The board evaluates the terms of reference against the
relevant collection set and other ongoing intelligence assessments and
determines whether the proposed intelligence assessment addresses a
known collection requirement or whether it duplicates work already
being done. The IMS's Strategic Analysis Unit prescreens the terms of
reference of each proposed intelligence product before it is passed to
the board. Also, intelligence assessments and intelligence bulletins
should be uploaded into the ACS, but the I M S section chief said that
often this is not done.

Data on the Number of Maritime Threats

      FBI headquarters and its field offices receive warnings daily
about terrorist threats and suspicious activities. These warnings come
from a variety of sources, including other intelligence agencies, law
enforcement agencies, and concerned citizens. The FBI Director has
made it clear to all employees that the FBI's highest priority is the
resolution of all terrorist threats. While the FBI has created the
Guardian Threat Tracking System (Guardian) to manage the resolution
of threats and suspicious incidents, this system is neither easily
searchable nor a useful tool for identifying trends in types of incidents.



                     REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSlFIED

As a result, during our audit the FBI could not identify the number of
maritime-related threats from 2002 to the present. Instead, in
response to our request for a list of maritime-related threats to which
t h e FBI had responded, the FBI manually reviewed reports of monthly
compilations of significant incidents, called threat information reports,
and identified 68 maritime-related incidents that it tracked from
September 2004 to September 2005. Two of the FBI's six maritime-
related intelligence assessments also included data about the scope of
the maritime threat.

Intelligence Assessments with Data on Maritime Incidents

      A May 2004 intelligence assessment by an FBI field office
highlights the difficulty the FBI has in determining the scope of the
threat of maritime terrorism and offers potential methods for resolving
those difficulties. Two intelligence analysts, one FBI and one Coast
Guard, reviewed 157 sus icious incidents reported to law enforcement
involving a ferry systernaP2They also assessed the likelihood of
whether the incidents were indicative of pre-operational planning for a
terrorist attack.

       Our review of the intelligence assessment noted the following
difficulties encountered by the analysts. First, the FBI had to ensure it
had data on all of the incidents reported to local, state and federal
agencies. To accomplish this, Seattle's Field Intelligence Group
attempted to collect from its law enforcement partners all suspicious
activity reports related to the ferries. Second, the FBI and its partners
did not have a standardized reporting format for suspicious incidents.
As a result, the partners submitted their reports in various formats
which the FBI had t o manually summarize. Third, multiple agencies
often reported on the same incident. Inconsistencies between various
reports - such as date and number of suspects - made it difficult for
the analysts to identify the number of incidents. Fourth, the incident
reports did not provide enough detail about the suspects or their
vehicles. Fifth, the reports did not indicate whether the event had
been thoroughly investigated when feasible. Finally, the FBI had no
standardized guidance for assessing the likelihood that a given
suspicious activity was indicative of pre-operational planning.




                     REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

       Despite concerns about the quality of its data, the Seattle FBI
ofFtce developed a weighted ranking system to assess the likelihood
that a given incident was indicative of pre-operational planning. The
ranking system included the following six categories: "not applicable,"
"extremely high," "high," "medium," "low," and "not weighted." Each
category had a set of criteria against which all the incidents were
assessed. For example, incidents classified as "extremely high" met
the following criteria:




      The Seattle intelligence assessment also included two checklists
intended to improve the quality of information collected a bout
suspicious incidents. The first checklist was for law enforcement
personnel responding to suspicious incidents, reminding them to:

         photograph or videotape the incident;

         record information about the subject's vehicle, its occupants,
         and location; and

         record descriptive information about the suspect and the
         suspect's actions.

The second checklist provided questions that FBI or J l T F personnel
should ask law enforcement when they report a suspicious incident to
the FBI.




                                 -   65 -
                    REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCLASSIFIED




Guardian Threat Trackjng System

      I n September 2004, to facilitate the accurate, complete, and
timely reporting on the existence and status of terrorist threats, the
FBI launched a database called ~ u a r d i a n .Guardian
                                                   ~~       is available on
the FBI Intranet, and all field offices and legal attaches are required to
enter into Guardian new terrorism threats and suspicious incidents
originating in their territory and use it t o track resolution. As of
September 2005, the FBI had entered information into Guardian on
51,000 threats. However, because of Guardian's limited search
capabilities, the system cannot readily be used to identify maritime or
other sector-specific threats or t o produce data for trend analyses.

      At our request, the FBI's Threat Monitoring Unit (TMU) queried
Guardian in an attempt to identify the number of maritime-related
incidents within the database, but the system was unable to conduct
such a search. Instead, Guardian could be queried on the number of
times certain words occurred in the system. Even this search was not
simple because maritime-related terms, such as "port," are a subset of
other words that occur frequently in Guardian. For example, "report"
and "airport" both include "port," so the search for port had to be
             -

       23 The scope of our work on Guardian was limited to those aspects affecting
the FBI's maritime role such as data on the number of maritime incidents. We did
not examine information technology management practices used to develop or
implement Guardian.
                                      -   66 -
                       REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCLASSIFIED

modified to exclude these other words. The chart below shows the
results of the FBI's efforts to identify the number of times a certain
word occurred in Guardian.

                  Number of Maritime-Related Hits in
                 the Guardian Threat Tracking System
                   September 2004-September ZOOS


      I   onn   L                                          I                 I




      Source: The FBI

      Since the FBI was unable to use Guardian to identify the number
of maritime-related incidents, the Threat Monitoring Unit manually
reviewed threat information reports from September 2004 to
September 2005 to identify the most significant maritime-related
incidents in ~ u a r d i n.24
                         a    Based on this review, the FBI identified 68
maritime-related incidents, with the greatest concentration found in
the Seattle area. I n addition, there were a substantial number of
threats along the Gulf Coast, which most likely involved suspected
surveillance of energy facilities and oil tankers.

      The FBI categorized 68 percent of the 68 incidents as possible
surveillance. As shown below, the remaining 32 percent of the

       24 Threat information reports originated in 2004 in response to a need for an
up-to-date summary of threat information from the '04 Task Force. The '04 Task
Force was formed to prepare for several special events in 2004 including the
presidential elections, the Olympics, and the Democratic and Republican National
Conventions. These reports provide monthly summaries of significant threat
reporting by region, type, and target.
                                       - 67 -
                        REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCLASSIFIED

incidents were classified as suspicious activity, security violations, or
other.

           Threat Information Report Threat Categories




                 10%                             -Possible ~urwillancel
                                                             -

                                                  H Suspiciws Activity
           14%                                     Security Violations
                                                 L-
                                                  0M -
                                                     er        -.
                                                                         ,


                                                                         I




      Source: The FBI

       The FBI identified 6 categories of maritime targets, each of
which accounted for at least 7 percent of the 68 incidents. The most
commonly targeted maritime infrastructures were terminals and
ferries, both of which were frequently filmed or photographed in the
Seattle area by people acting suspiciously. Together these targets
accounted for 47 percent of the incidents. Assuming the data from
these 68 incidents is indicative of pre-operational activity, the FBI
believes that ferries in the Seattle area and fuel tankers in t h e Gulf
Coast region appear to be the most likely targets of maritime
terrorism. The chart below shows the distribution of targets for the 68
incidents.




                                   - 68 -
                        REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

    Threat Information Report Maritime Incidents by Target




                 17%                24%         .1   TerminavFacility
                                                     Ferry
                                                     Energynankers
                                                     Commercial
           14%




      Source: The FBI

       TMU officials expressed concern that the entries in Guardian, and
the threat information reports, are not representative of ail the
maritime suspicious incidents. Guardian generally includes only the
threats the FBI has received or investigated. The FBI database does
not include Coast Guard reporting on suspicious incidents, nor does it
include data from the FBI's state and local law enforcement partners
such as port authority police departments. The Seattle intelligence
assessment on ferries also recognized this weakness and compensated
for it by canvassing other law enforcement agencies for suspicious
activity reports.

       The FBI plans to correct several of the weaknesses in its ability
to collect and analyze suspicious activities and other security incidents
by upgrading Guardian and establishing an Internet-accessi ble version
of the data base, called E-Guardian. The upgraded version, Guardian
2.0, is scheduled to be deployed in March 2006. Guardian 2.0 is
expected to have improved search capabilities. I n addition to
improved search capabilities, Guardian 2.0 will allow users to
bookmark items of interest, hyperlink items, and save the results of
searches.

      The FBI plans to deploy E-Guardian in April 2006.
E-Guardian will allow law enforcement and intelligence personnel to
enter information into Guardian through an Internet-based system


                        REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCMSSIFIED

accessible only to authorized users. While E-Guardian users will be
able to add or update entries a t any time, the data in the E-Guardian
website will be updated every 6 or 8 hours. A TMU official said the
exact update interval had not yet been determined. Further, E-
Guardian will not include classified information. We believe
E-Guardian will be a significant improvement because it will help
standardize suspicious incident reporting and collect information from
other law enforcement agencies.

      I n the EC announcing Guardian, the FBI Deputy Assistant
Director for Operational Support noted, "Given the current world
situation, it is imperative that all threats and suspicious activity be
closely monitored and fully exploited." However, the FBI has not
established controls to ensure that field offices enter all terrorism
threats, suspicious activity, and events into either version of Guardian.
Without these controls, the FBI cannot be assured that Guardian
contains all threat information gathered by the FBI or that this
information is entered and resolved according to the established
guidelines.

       Since January 2005, the CTD has sent eight ECs to its field
offices and legal attaches reminding them of the requirement to enter
all terrorism information into Guardian and to resolve the entries. I n
March 2005, the TMU reviewed entries into Guardian over the previous
30 days and sent an EC to FBI field offices and legal attaches reporting
"some trends showing that several offices are not fully utilizing the
Guardian System and taking advantage of its capabilities." During
that 30-day period, only two field offices - New York and Baltimore -
recorded more than 100 entries, accounting for 2 1 percent of the
1,211 entries made by field offices. As shown in the following table,
75 percent of the FBI's 56 field offices recorded less than 25 entries.
Major FBI field offices, including Boston and Dallas, recorded five or
fewer entriesm2'




      25   See Appendix I1 for the number of Guardian entries for each field office.
                                        - 70 -
                        REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

                  Field Office Guardian Usage,
              30-Day Period Ending March 28, ZOOS




                                                                              '
      - --         --      --     --      ----
                           Percentage of Fidd Offices
                               [.4%




                                                                          1
                                                        ,

                                                                100 Entries
                                                            175-100 Entries
                                                            0 50-74 Enbies
                                                              25-49 Entries
                                                            --
                                                              < 25 Enbies     I


     Source: OIG Analysis of FBI data

      We are concerned that not all field offices are fully utilizing
Guardian. I n our judgment, the underutilization of Guardian prevents
the TMU from developing a complete understanding of threat trends,
including threats associated with the maritime domain.

      Ensuring that each Guardian entry is investigated to its logical
end and documenting the investigation are two other challenges the
TMU faces and has been actively managing. TMU has sent field offices
two ECs concerning unresolved Guardian en tries that needed further
investigation or management review. The first EC, sent in January
2005, reported that 30 percent of all Guardian entries were
unresolved. When the second EC was sent in August 2005, unresolved
entries accounted for 1 3 percent of all entries. As shown in the
following table, in August 2005 the majority of the 6,028 unresolved
entries were entered by field offices. Forty-eight percent of the
unresolved entries were more than 90 days overdue.




                                    - 71 -
                     REDACTED AND UNCIASSIFJEO
                          REDACTED AND UNCLASSIFIED

                         Unresolved Guardian Entries,
                                August 2 0 0 S a

                          Tota I          Unresolved
                                                        I
                                                            Unresolved    I ~nresolved
                        Unresolved       for 30 Days         for 3 1 to       for More
,                        Entries           or Less           90 Days      1
                                                                          I
                                                                              Than 90
                                                                                Days
                                                                                                1
                                                                                                4
                                                                                   2,385
                                                                              -.
                                                                                     317
                                                                                     169
                                                              1,069                 2,871
--                                                            (18%)                (4 8 O/o )
          Source: The FBI

          Note: (a) Percentages do not total to 100 percent due to rounding.

    Conclusion

           The FBI has not conducted or reviewed a threat assessment that
    ranks the different tactics or targets that terrorists may employ. It
    therefore does not have any assurance that the amount of resources
    allocated to the various initiatives aimed at preventing terrorism in
    segments of the economy - such as seaports, aviation, mass transit,
    energy, agriculture, and other critical infrastructures - are
    proportional to the threat. Moreover, the FBI's Directorate of
    Intelligence did not monitor the FBI's intelligence products to ensure
    they met its intelligence requirements. The FBI's threat-monitoring
    database, Guardian, is promising, but a number of limitations must be
    resolved before it can produce a complete and accurate picture of
    maritime threats and suspicious incidents. We identified two
    intelligence initiatives at FBI field ofices   -
                                                  intelligence bulletins with a
    field office's recent Guardian data, and an intelligence assessment that
    included non-FBI suspicious incident reporting - t h a t the FBI may
    want to consider implementing more broadly.

    Recommendations

          We recommend that the FBI:

          13. Assess t h e threat and risk of maritime terrorism compared
              to other terrorist threats and ensure the National Threat
              Assessment ranks the various modes of attack and targets.


                            REDACTED AND UNCLASSIFIED
              REDACTED AND UNCIASSIFIED


14. Ensure the amount of FBI resources dedicated to maritime
    terrorism is based on the extent of the maritime threat in
    relation to other threats.

15. Monitor t h e progress of operating divisions and field offices
    in answering intelligence collection requirements pertaining
    to seaports and maritime terrorism.

16. Focus intelligence reporting to more comprehensively
    address potential maritime-related terrorist targets and
    methods.

17. Name a unit within the Counterterrorism Division to monitor
    the volume and substance of all FBI maritime-related
    intelligence,

18, Consider establishing a requirement for regular field office
    intelligence bulletins to summarize the field office's
    suspicious incident reporting and, if such a requirement is
    adopted, establish standardized frequency, content, and
    distri butian requirements.




               REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

            STATEMENT ON COMPLIANCE WITH
                LAWS AND REGULATIONS
       We have audited the FBI's efforts to prevent and respond t o a
maritime terrorism attack. The audit was conducted in accordance
with the Government Auditing Standards. As required by the
standards, we reviewed management processes and records to obtain
reasonable assurance that the FBI's compliance with laws and
regulations that could have a material effect on FBI operations.
Compliance with laws and regulations applicable to the FBI's terrorism
efforts in the maritime domain is the responsibility of the FBI's
management.

      Our audit included examining, on a test basis, evidence about
laws and regulations. The specific laws and regulations against which
we conducted our tests are contained in :

         28 U.S.C.   5 533;
         Presidential Decision Directive 39;

         Presidential Decision Directive 62; and

         National Security Presidential Directive 41/Homeland Security
         Presidential Directive 13.

      Our audit identified no areas where the FBI was not in
compliance with the taws and regulations referred to above. With
respect to those transactions not tested, nothing came to our attention
that caused us to believe that FBI management was not in compliance
with the laws and regulations cited above.




                                 - 74 -
                     REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

           STATEMENT ON INTERNAL CONTROLS

      I n planning and performing our audit, we considered the FBI's
internal controls for the purpose of determining audit procedures. This
evaluation was not made for the purpose of providing assurance on
the internal control structure as a whole. However, we noted certain
matters that we consider to be reportable conditions under the
Government Auditing Standards.

       Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of the
internal control structure that, in our judgment, could adversely affect
the FBI's ability to manage its maritime terrorism efTorts. As
discussed in the Findings and Recommendations sections of this
report, we found that:

         The FBI does not allocate the amount of its resources
         dedicated to maritime terrorism based on the maritime
         threat;

         The FBI does not ensure that every intelligence product cites
         an intelligence requirement;

         The FBI does not ensure that all indicators with a nexus to
         terrorism in the human smuggling collection set includes a
         reporting requirement to the relevant officials in the CTD;

         The FBI does not have a threat-based or risk-based method
         of allocating MfAs to its different divisions and field offices;

         The FBI cannot measure the amount of resources devoted to
         maritime efforts;

         The Manual of Investigative Operations and Guidelines does
         not clearly state which types of exercises, special events, and
         FBI responses require an after-action report; and

         The FBI does not ensure that its field offices submit annual
         critical incident reports to the Critical Incident Response
         Group.



                                  -   75 -

                     REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

       Because we are not expressing an opinion on the FBI's internal
control structure as a whole, this statement is intended solely for the
information and use of the FBI in managing its maritime terrorism
efforts. This restriction is not intended to limit the distribution of this
report, which is a matter of public record.




                                   - 76   -
                      REDACTED AND UNCWSSIFIED
                    REDACTED AND UNCLASSIFIED

                                                            APPENDIX I

        OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      The primary objectives of the audit were to determine:
('I)the FBI's roles, responsibilities, and capabilities for preventing and
responding to terrorist attacks in the maritime domain, including U.S.
seaports; and (2) the extent and effectiveness of FBI interagency
coordination, planning, assistance, and investigation to help ensure
maritime domain security.

Scope and Methodology

       The audit was performed in accordance with the Government
Auditing Standards, and included tests and procedures necessary to
accomplish the audit objectives. We conducted field work at the FBI's
headquarters in Washington, D.C., facility in Quantico, Virginia, and
Baltimore, Maryland, field office. I n addition, we also conducted work
a t the Washington, D.C., headquarters of the DO1 and Coast Guard.

        We interviewed officials from the FBI, 003, Coast Guard, and
CBP. We also interviewed officials from state and county law
enforcement in Maryland. The FBI officials we intewiewed were from
the CTD, the CIRG, Directorate of Intelligence, and the Baltimore field
office. We also reviewed documents related to the FBI's Maritime
Liaison Agent program initiative, Maritime Security Program,
intelligence requirements and collection sets, intelligence products,
response capability, and organizational structures. I n addition, we
reviewed relevant laws, directives, national plans, congressional
testimony, and prior OIG and GAO reports.

      To determine the FBI's roles, responsibilities, and capabilities for
preventing and responding to terrorist attacks in the maritime domain,
we reviewed federal statutes, national directives, and memoranda of
understanding pertaining to terrorism and to maritime authority. We
examined the FBI's maritime-related counterterrorism efforts by
reviewing existing FBI maritime program and capability documents
and interviewing FBI officials. We also reviewed the FBTL threat data
and intelligence products concerning maritime terrorism. I n addition,
we visited the Baltimore field office to observe maritime training and



                     REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

interview officials regarding the FBI's interagency cooperation and
maritime response capabilities. While a t the Baltimore field office, we
observed FBI maritime training involving the Baltimore SWAT team
and the Hostage Rescue Team.

        To determine the extent and effectiveness of FBI interagency
coordination, planning, assistance, and investigation to help ensure
maritime domain security, we interviewed FBI, Coast Guard, and CBP
officials. We interviewed FBI officials to learn about its maritime
initiatives, efforts a t interagency cooperation, and information sharing
with maritime partners. We reviewed FBI participation in maritime
terrorism-related exercises.

       I n addition, we interviewed Coast Guard headquarters officials,
Coast Guard Investigative Service officials assigned to the National
Joint Terrorism Task Force and the Baltimore Joint Terrorism Task
Force, and Maryland state and county law enforcement officials to
assess their working relationships with the FBI, including information
sharing and interagency cooperation.




                     REDACT€D AND UNCLASSIFIED
                 REDACTED AND UNCLASSIFIED

                                                APPENDIX I1

FIELD OFFICE GUARDIAN ENTRIES, 30-DAY
    PERIOD ENDING MARCH 28,2005

                                  Guardian Entries
                                        159 --
                                        101--
             ---                  --74
                                     -
 +st.-                              62
                                   ----
.cSeattle
--                                  62
1 Atlanta                   1       61---




New Orleans
Cincinnati
Phoenix
--                    1-
                       --
                       26
                          %
---

    Tam~a                               15   -7
1 Detroit                     1         24    1
                                                -


1   Pittsburah                I         22          I
    San Francisco
            --                    ---

    New Haven    --
    Kansas Citv                         18
                                                         I
1   Oklahoma Citv             I         18               I
L-  Minneapolis              L-         17          1
1 Anchoraae                   I         15               1
[ Columbia                   L-         14          -I
  Louisville
I T z I ~ ~ ~
I St. ~ o u i s
                           1
                           -1
                            I
                             3
                             - l4
                               13
                                                1        I
1 Miami-
       -
                            I
                            i -ll
k f l o lk          --
 Richmond
bleveland


                 REDACTED AND UNCLASSIFIED
!-          Field Office
     Sacramento
     Honolulu
                           1
              REDACTED AND UNCLASSIFIED



                               -
                               --
                                 Guardia; ~ n t r i e s
                                 -
                                 -
                                                          1
     Mem his
1    San Antonio --     2-6                          1

                                              -  -
 Indianapolis                             5
kEkee               -

                                          4
1 Knoxville                               4    I
ki
1
   t
   Vegas
  Lgs
  m o c k
 Omaha
                                          4
                                          4      ----I
E r -ham                   L              3        --     1


i Albuquerque   --      L-
                         I -
                           _I

I TOTAL ENTRIES            I            1.211             I




                        - 80 -
              REDACTED AND UNCIASSIFIED
                         REDACTED AND UNCLASSIFIED

                                                                  APPENDIX 111

 MARITIME ACTIVITY AND RISK OF MARITIME TERRORISM
CONCENTRATED IN THE TERRITORY OF 24 F B I FIELD OFFICES

   Field Office                   Ports I n Territory
 1 Anchorage, AK                  Anchorage, AK (E), Valdez, AK (E)
 2 Atlanta, GA                    Savannah, GA (V,T,E)
 3 Baltimore, MD                  Baltimore, MD (V,T,E), Wilmington, OE (E)
                                  Boston, MA (E), Portland, ME (E), Portsmouth, NH
 4 Boston, MA                     (E), Providence, R I (E)
 5 Columbia, SC                   Charleston, SC (V,E)
                                  Houston, TX (V,T,E); Port Arthur, TX (T,E),
                                  Beaumont, TX (VfT,E), Corpus Christi, TX (V,T,E),




 8 Jacksonville, FL               Jacksonville, FL (V,E), Pensacola, FL (€1
                                  Los Angeles, CA (V,T,E), Long Beach, CA (V,T,E),
 9 Los Anqeles, CA                Port Huenerne, CA {E)
10 Memphis, TN                    Memphis, TN (E), Nashville, TN (E)
11 Miami, FL                      Miami, FL (VIE)
1 2 Minneapolis, MN               Minneapolis, MN (E), St. Paul, MN (E)
13 Mobile, AL                     Mobile, AL (TIE)
14 New Haven, CT                  New Haven, CT (E), Bridgeport, CT (E)
                                  New Orleans, LA (V,T,E), Plaquemines, LA (TIE),
                                  Port of South Louisiana (La Place), LA (T,E), Baton
                                  Rouge, LA (TIE), Morgan City, LA, Lake Charles,

16 New York City, NY              New York, NY (V,T, E)
17 Newark, N3                     Newark,   NJ   (E)                                    I
18 Norfolk, VA                    Norfolk, VA (V,T,E), Newport News, VA (E)
19. Philadelphia, PA              Philadelphia, PA (V,T,E), Camden, NJ (El
20 Pittsburqh, PA                 Pittsburgh, PA (E), Huntington, WV (E)
21   Portland, OR                 Portland, OR (VIE)
                                  San Francisco, CA (E), Oakland, CA (VIE),
22 San Francisco, CA              Richmond, CA (E)
                                  Seattle, WA (€),Tacoma, WA (V,E), Vancouver,
23 Seattle, WA                    WA (E)
                                  Tampa, FL (E), Port Canaveral, FL (E), Port
24   Tampa, FL                    Everglades, FL (V, E)


V : Top 20 Port by Value
T: Top 20 Port by Tonnage
E: P o r t eligible for FY 2005

                                       - 81 -
                          REDACTED AND UNCWSSIFIED
        REDACTED AND UNCLASSIFIED

                                          APPENDIX ZV

               ACRONYMS

ACS        Automated Case Support
AMSC       Area Maritime Security Committee
CBP        Customs and Border Protection
CFR        Code of Federal Regulations
CIRG       Critical Incident Response Group
CTD        Counterterrorism Division
DHS        Department of Homeland Security
EC         Electronic Communication
FBI        Federal Bureau of Investigation
FY         Fiscal Year
GAO        Government Accountability Office
IIR        Intelligence Information Report
HDRU       Hazardous Devices Response Unit
HRT        Hostage Rescue Team
JlTF       Joint Terrorism Task Force
IMS        Intelligence Management Section
MIOG       Manual of Investigative Operations and
             Guidelines
MIA        Maritime Liaison Agent
MOTR       Maritime Operational Threat Response
MOU        Memorandum of Understanding
MSST       Maritime Safety and Security Team
MTSA       Maritime Transportation Security Act of 2002
NJTTF      National Joint Terrorism Task Force
MTA         National Threat Assessment
OIG        Office of the Inspector General
PDD         Presidential Decision Directive
SWAT        Special Weapons and Tactics
TMU        Threat Monitoring Unit
TSC        Terrorist Screening Center
USC         United States Code
WMD         Weapon of Mass Destruction




                    - 82 -

        REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASS1FIED

                                                                                          APPENDIX V

FEDERAL BUREAU OF INVESTIGATION'S RESPONSE
           TO THE DRAFT REPORT
                                                   U.S. Departmeet of Justtee

                                                   Federal Bureau    of   Investigation

         --                     -                                      ---
                                                   Wmhinysn.   U.C . 20335-0001

                                                   March 17, 2006



The H o n o r a b l e Glenn A . Finc
Inspector G e n e r a l
Office of the Inspector G e n e r a l
United S t a t e s D e p a r t - m e n t of Justice
Room 4 3 2 2
9 5 0 Pennsylvania Avenue, Northwest
Washington, D. C .        20530
D e a r Mr.   Fine:

               I would l i k e to t h a n k you for providing the F e d e r a l
B u r e a u of Investigation ( F B I ) the opportunity to r e s p o n d to your
r e p o r t entitled, "The FBI's E f f o r t s to Prevent and Respond to
Maritime Terrorism."
                  I recognize the subsrantial c h a l l e n q e t h e O f f i c e of the
I n s p e c t o r G e n e i a l ( O I G ) has In producing timely r e p o r t s on
complex issues s u c h as this. This challenge is even more
difficult w h e n assessing FBI operations because of t h e r a p i d
changes it continues to undergo to o p t i m a l l y position i t s e l f to
a d d r e s s t h e e v o l v i n g t h r e a t s to o u r Nation.
                 I n l a r g e p a r t , t h e FBI agrees w i t h t h e findings and
recommendations o f t h i s r e p o r t . Accordingly, E x e c u t i v e
Management from t h e Counterterrorism D i v i s i o n ( C T D ) o f t h e FBI
and personnel from t h e appropriate programs w i t h i n the F B I have
r e v i e w e d OIG's draft report concerning t h e FBI's e f f o r t s to
p r e v e n t and respond to maritime terrorism.                 Ideally, we would
l i k e f o r t h e r e p o r t to be updated to provide a c u r r e n t status of
maritime security e f f o r t s in t h e FBI, and to that e n d have s e t
f o r t h several points of information f o r you t o consider.

               The F B I ~ n i t i a t e dt h e Maritime Security Program      (MSP)
               in July 2005. T h i s proactive measure w a s taken by CTD
               Executive Management i n recognition of the potential
               t h r e a t of maritime terrorism. It is worth noting that
               t h i s program w a s established without a d d i t i o r l a l f u n d i n g
               by r e a l l o c a t i r , g resources w i t h i n C T D .
               A v a i l a b i l ~ t y of r e s o u r c e s has also influenced the FBI'S
               participation in various exercises. Although t h e FBI
               would l i k e to participate in additional exercises, t h e




                                            - 83      -
                          REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED


hir.Glenn A. Fine
             F B I is currently able t o support t h e joint e x e r c i s e s
             t h a t are coordinated through the National Exercise
             Program.
             The FBI is actively w o r k i n g with the United S t a t e s
             Coast       Guard I U S C G ] a n d other agencies to resolve
             potential coordination issues in advance of actual
             t h r e a t s and inti-dents in the maritime domain.

          Additiocally, t h e following comments are t,a c o r r e c t or
clarify statements made in the text of t h e a u d i t report:

1.           Page " v " , first paragraph and page 25, f i r s t paragraph:
             The MSP prepared an E l e c t r o n i c Comrnunica t i o n ( E C ) to
             the field to request t h a t an FBI Special Agent (SA), as
             opposed to a T a s k Force O f f i c e r [TFO) be designated as
             the primary Maritime L i a i s o n Agent (MLA)                .
                                                                      Although
             t h i s EC was drafted, it was n o t approved by CTD
             management. As a r e s u l t , in many F i e l d Offices a TFO
             serves as the primary or o n l y MLA.

             Page "vi", f i r s t bullet: This p o i n t may need to be
             modified to lnclude Lhe capabilities of t h e Laboratory
             Division's Hazardous Materials Response U n i t (HMRU) i n
             dealing w i t h a weapon of mass d e s t r u c t i o n (WMDI
              incident.       HMRU provides technical and s c i e n t i f i c
              operational resgonse to WMD i n c i d e n t s , including, b u t
              not   limited to, crime scene management, e v i d e n c e
             recovery, emergency decontamination and s c i e n t i f i c
             assessments. T h e responsibilities o f t h e Hazardous
             Devices Respanse Unit (HDRU) includes t h e response to
             t h r e a t s and actual d e v i c e s before they a r e detonated or
             used in a n " a t t a c k . " HDRU does not respond to p o s t -
             detonation a t t a c k s ; that is the responsibility of HMRU
             and/or t h e Laboratory Division's Explosive U n i t .

              Page "viii", l a s t paragraph:                    The statement, "The F B I
              h a s not collected complete data on t h e number of
              s u s p i c i o . ~activities
                                   ~                 or t e r r o r i s t t h r e a t s ~nvolving
              s e a p o r t s , " is correct. However, the MSP has begun to
              c o l l e c t this information from a l l a v a i l a b l e sources.
              Tie MSP has created a d a t a base to capture t h i s
              information which w i l l be used to i d e n t i f y and track
              p o s s i b l e trends in suspicious activity a t ports and
              p o r t facilities. The MSP i.s also in the process of
              c r e a t i n g a s t a n d a r d i z e d reporting mechanism f o r use by
              t h e M L A s when r e s p o n d i n g to incidents. These reports
              will be maintained in t h e MSP case f i l e and t h e
              information will also be entered into t h e data b a s e .
              F i n a l l y , t h e MSP maintains liaison with other agencies




                                             - 84 -

                          REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCLASSIFIED


Mr.Glenn A. Fine
            and t h e private sector, such a s the USCG, O f f i c e of
            Naval Intelligence (ONI) and the I n t e r n a t i o n a l Council
            of Cruise Lines ( I C C L ) , f o r the sharing of p e r t i n e n t
            threat information.

             Page 20, bottom of the page: It should be noted that
             t h e MSP w i i l present the 2006 Maritime L i a i s o n Agent
            T r a i n i n g Conference in Long Beach, California from
            04/03-07/2006- The Port of Long Beach is one of the
            busiest ports i n t h e United States w i t h a v a r i e t y of
            inter-modal transportation s y s t e m s . T h i s s i t e was
            s p e c i f i c a l l y chosen because it o f f e r s hands
            on/familiarization training using v a r i o u s port
            f a c i l i t i e s and vessels. The curriculum f o r this
            conference is expected to include presentations on the
            impact of maritime directives under the N a t i o n a l
            S t r a t e g y for Maritime Security (NSMS); informant and
            liaison development; l e g a l issues; e n h a n c i n g maritime
            domain awareness; t h e F B I ' s capabilities and resources
            to respond to a maritime i n c i d e n t ; and guidance to the
            field on best p r a c t i c e s .

             Page 2 4 , f i r s t f u l l paragraph: The report indicates
             t h a t a s a result of placing responsibility for managing
             the MLA Program u n d e r t h e MSP, a l l of the F B I ' s
             transportation related countertsrrorism programs a r e
             l o c a t e d withln t h e same organizational unit, This is
             not the case as t h e National J o i n t Terrorism T a s k Force
              [NJTTFI initiated t h e R a i l Liaison Agent (RLAJ Program
             v i a EC dated 20/24/2005. T h e H J T T F r e q u e s t e d each
             Field Office to designate an FBI SA or TFO as a prlmary
             and secondary RLA. A separate initiative is currently
             underway to e v a l u a t e t h e feasibility of creating a
             program or u n i t focused on a l l aspects of the
             t r a n s p o r t a t i o n sector. It is i m p o r t a f i t to n o t e this
             initiative i s unfunded a n d would be created by
             reallocating existing r e s o u r c e s .
             Page 2 4 , last paragraph: The r e p o r t mentions t h a t one
             of t h e objectives of the MSP was to c r e a t e a website on
             the F S I ' s I n t r a n e t to facilitate t h e dissemination of
             information p e r t a i n i n g t o d i r e c t i v e s , t r a i n i n g ,
             i n t e l l i g e n c e and o t h e r m a t t e r s . This objective h a s
             been accomplished. The MSP website a d d r e s s is
             http;//ctd.fbinet.fbi/semu/maritime/. This website
             contains information on maritime directives including
             National S e c u r i t y P r e s i d e n t i a l D i r e c t i v e
              IMSPD)-4i/Homeland Security Presidential Directive
              (HSP0)-13, t h e NSMS and key supporting p l a n s ; maritime
             related s t a t u t e s ;   intelligence reports; p o i n t s of




                                           - 85 -

                         REDACTED AND UNCIASSIFIED
                       REDACTED AND UNCLASSIFIED

Mr. Glenn A. Fine
             c o n = a c t ; and links to r e l a t e d proqrams including the
             DirecLorate of Intelligence (DI), and t h e Office of the
             General Counsel (OGC).                Information is continually
             updated or added to t h e website. "he               MLAs are n o t i f i e d
             of information p o s t e d to the website via e-mail. The
             website h a s generated positive feedback from t h e MLAs
             and is a r e a d i l y a v a i l a b l e source o f standardized
             i n f o r m a t i o n for the f i e l d .
             Page 24, last paragraph: The report also mentions t h a t
             a n o t h e r o b j e c t i v e of t h e MSP was tc review maritime
             r e l a t e d s u s p i c i o u s activity reports to i d e n t i f y a n y
             trends that may be i n d x a t i v e of pre-operational
             p l a r n i n q , As noted above, the MSP h a s already s t a r t e d
             t h i s process, which is ongoicg.               T h i s e f f o r t is
             complicated by tne lack of srandardized r e p o r t i n y and
             difficulty i n r e ~ r i e v i n gthis information, as s t a t e d
             elsewhere in the f i n d i n g s .
             Page 25, middle of the paqe; The report States t h a t
             the MSP h a s not reviewed the e i g h t supporting plans
             under the NSMS to i d e n t i f y the FBI's responsibilities
             nor identified all of t h e F B I ' s r e p r e s e n t a t i v e s
             a s s i g n e d to the corresponding working groups. That
             information was supplied to O I G at :he inceptior. of the
             MSP. S i n c e t h e n , the MSP has t h o r o u g h l y reviewed
             NSPD-91/HSPD-13, t h e NSMS and a l l elght of the
             s u p p o r t i n g p l a n s . The F B l ' s responsibilities u n d e r
             t h e s e d i r e c t i v e s have been identified a n d a r e being
             addressed. NSPD-41/HSPD-13, the NSMS and key
             supporting p l a n s are posted to t h e MSP webslte. Due to
             limited resources, t h e YSP must p r i o r i t i z e which of t h e
             working g r o u p s to attend in support of these e f f o r t s .
             In that r e g a r d , representatives from the MSP have
             regularly attended and participated in the Marlrime
             S e c u r i t y P c l i c y Coordinating Committee ( i n support o f
             E x e c u t i v e Management): t h e Maritime S e c u r i t y Working
             Group; t h e Maritime Operational Threat Reeponsc {MOTR)
             frnplementation Team; and the Maritime Domain Awareness
             Implementation Team. In addition, an interagency MOTR
             J o i n t Working Group { J W G ] has r e c e n t l y been established
             to address t h e p l a n n i n g , standardization and exercise
             requirements that will be deleted from the final
             version of the MOTR P l a n a s t h e Homeland Security
             C o u n c i l h a s indicated. The MSP participates in t h i s
             JWG a s well as the Border and Transportation Security
             Policy Coordinating Committee.

              Page 25, f o ~ r t hparaqraph: The r e p o r t s t a t e s ,?either
              the MSP's FY 2006 g o a l s and objectives nor the critical




                                           - 86 -
                          REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASSIFIED


Mr. G l ~ n nA. Fine

               duties of an MLA i n c l u d e t h e need f o r the F B I to
               develop r e l a t i o n s h i p s w i t h people who can inform the
               F R I about maritime operations.                   It s h o u l d be n o t e d t h a t
               at t h e time the MSP's goals and o b j e c t i v e s were
               established (via EC d a t e d 0 8 / 1 9 / 2 0 0 5 ) , t h e MSF d i d not
               have responsibility for managing t h e MLA Program. In
               f a c t , the f i r s t objective identified i n t h a t EC uas to
               coordinate with t h e NJTTF to assume responsibility for
               t h e MLA Program. T h a t objective was accomplished on
               1 0 / 0 4 / 2 0 0 5 , when t h e MSP assumed responsibility for
               managing t h e MLA Program.
               F u r t h e r m o r e , w i t h i n t h e goals and objectives ( v i a EC
               dated 08/19/2005), t h e MSP established v a r i o u s
               objectives for t h e f i e l d . One o f t h e s e objectives
               was to " e n s u r e effective liaison between the MLA and
               various l a w enforcement a g e n c i e s , port and s h i p p i n g
               o f f i c i a l s in respect to counterterrorism
               preparedness."                I n t h e goals a n d objcctives KC, t h e
               MSP l d e n t i f ied f i v e core competencies w h i c h i n c l u d e d
               t h e establishment of a human intelligence base.
               Finally, in an EC to a l l Field Offices dated
               07/12/2004, the NJTTF s t a t e d , "The goal of t h e MLA
               Program is to enhance the maritime environment
               t h r o u g h increased interaction between MLA members,
               private industry, s t a t e and l o c a l port authorities,
               to include law enforcement a n d o t h e r federal
               agencies w i t h maritime responsibilities. T h e s e
               enhancements w i l l result from the establishment of
               close working relationships between t h e MLAs and
               concerned e n t i t i e s w i t h i n the maritime f i e l d..." The
               EC goes on to provide additional g u i d a n c e and a n
               extensive l i s t of recommended liaison contacts,
               including participation in the l o c a l Area Maritime
               S e c u r i t y Committee ( A M S C ) . I n additlon to t h e s e
               specific recommendations, every FBI SAY including
               rhose designated a s MLAs, are evaluared on s p e c i f i c
               c r i t i c a l elements. One of the core critical
               elements f o r a l l FBI SAs is the development of an
                intelligence b a s e , which includes source
               development. This process encompasses identifying,
               initiating and developing relationships w i t h
               individuals or organizations t h a t may provide
                information or assistance in investigations a n d
               assignments. Therefore, C T D believes t h e need for
               t h e FBI to develop relationships w i t h people who c a n
                inform the FBI about maritime operations has been
                thoroughly addressed.

          A s you requested, t h e MSP has provided responses to
pertinent recommendations. Additionally, recommendations not




                           REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


Mr. Glenn A. Fine
under MSP's purview were p r o v i d e d to t h e appropriate offices,
( i - e . , the DT, t h e Critical Incident Response Group ( C I R C ) , and
CTD's ~ o u n t e r t e r r o r i s mAnalysis Section.) Responses to t h e
recommendations a r e set f o r t h below.


OIG Rauomm~ndation: Ensure t h a t MLA guidance 1 s consistent w i t h
the a c t u a l role of MLAs.

FBI Response:  FBI a g r e e s with this recommendation.                  The MSP has
already made significant proqress in t h i s r e g a r d .
Through t h e creation of t h e MSP website, whict contains
information on maritime directives, including NSPD-4l/HSPD-13,
t h e NSMS and key supporting p l a n s ; maritime r e l a t e d s t a t u t e s ;
intelligence reports; p o i n t s of contact; and l i n k s t o r e l a t e d
programs i n c l u d i n g the DI and t h e OGC. T n f o r r r a t i o n is
continually updated or added to the website. T h e MLAs a r e
notified of i n f o n t c a t i o n Fasted to t h e website v i a e-mail. The
website h a s qenerated p o s i t i v e feedback from the MLAs and is a
readily available source of standardized information for the
field.

The MSP is in t h e p r o c e s s of planning t h e 2 0 0 6 Maritime L i a i s o n
Aqent T r a i n i n g Conference in t o n g Beach, C a l i f o r n i a f r o m
04/03-07/2006.           This site was specifically chosen because the
P o r t of Long Reach is one of t h e busiest ports in t h e United
S t a t e s w i t h a v a r i e t y o f i n t e r - r n ~ d a l transportation systems. The
conference w i l l include hands on/familiarization t r a i n i n g using
various port f a c i l i t i e s and v e s s e l s . The curriculum f o r t h i s
conference i s e x p e c t e d to i n c l u d e presentations on t h e impact of
maritime d i r e c t i v e s under t h e NSMS; informant and liaison
development; legal issues: enhanljng maritime domain awareness;
the F B I ' s c a p a b i l - i t i e s and resources to respond to a maritime
incident; and gui-dance to t h e f i e l d on b e s t p r a c t i c e s .
F i n a l l y , now t h a t t h e MSP h a s responsibility for m a n a g e m e n t of
t h e HLA Program, t h e MSF w i l l establish s p e c i f i c , q u a n t i f i a b l y
measurable and attainable gaals and objectives t h a t a r e
consistent w i t h t h e responsibilizies assigned : o the MLAs, t o
i n c l , ~ d erecommendaz i o n s f n r part i c i p a t ion in v a r i o u s local
w o r k i n g gro,Jps a n d liaison c o n t a c t s ,


OIG Reemendation: A s s i g n MLAs based on an assessment of the
threat and r i s k of a terrorist a t t a c k t o c r i t i c a l seaports.




                                             - 88 -
                          REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCLASSIFIED

Mr. Glenn A. Fine
FBI Response:          F B I agrees w i t h t h i s recommendation. FEI w i l l
e n s u r e t h a t resvurces a r e assigned o r available necessary to
address the risk or threat based on the assessment.



OIG Rat-ndation: Measure t h e amount o f resources devoted to
maritime e f f o r t s by establishing a m a r i t i m e case classification
under t h e g e n e r a l Counterterrorism Preparedness c l a s s i f i c a t i o n .
FBI M a p n s e :         FBI agrees w i t h t h i s recommendation, The MSP has
a l r e a d y t a k e n c e r t a i n s t e p s w h i c h would enhance the FBI's ability
to measure the amount o f resources devoted to maritime e f f o r t s .
FBI is in t h e process of establishing a classification f o r
rndritlme matrers.
I n August 2005, the MSP p r o v i d e d recommendations t o t h e
Counterintelligence D i v i s i o n for c h a n g e s t o t h e Investigative
Accomplishment Report !ED-542) t o c a p t u r e a c t i v i t y conducted in
s u p p o r t of t h e MLA Program. Finalization of t h e modifications to
t h i s r e p o r t a r e pending.



OXG Rat-ndation:             R e q u i r e f i e l d offices to name at least one
MLA t o   each AMSC.

FBI Response: FBI a g r e e s w i t h this recornmendation.              FBI w i l l
ensure t h a t adequake resources are dedicatcd to each A r e a
Maritime S e c u r i t y Committee to a d d r e s s p r i o r i t y matters.



OXG Reco~mtandation:   Require field offices to immediately n o t i f y
t h e Maritime Security Program of any MLA a p p 0 i n t m e n t . s or
reassignments.
FBI FUsponse: FBI agrees with t h i s recommendation. T h e MSP
u p d a t e s the MTjA list on a regular basis. The MLA list is
maintained by t h e MSP and is a v a i l a b l e an t h e MSP web site. T h e
l i s t identifies, by Field Office, all of tke MLAs a s w e l l as the
JTT? Supervisors who have oversight of the MLA Program. The list
provides c o n t a c t information, identifies i f the MLAs a r e assigned
t o a R e s i d e n t Agency (RA) and which p o r t s t h e y c o v e r . The MSF
h a s advised field o f f i c e s to immediately nctify t h e MSP of any
personnel changes affecting t h e MSP, and t h i s g u i d a n c e will be




                        REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED

Mr. Glenn A. Fine
reiterated t h r o u g h training such as the 2006 Maritime T,iaison
Aqent Training Conference.



OIG R e c a m e i d a t i o n : Ensure t h a t the Maritime Security Program
h a s measurable objectives.

$BI Re&ponsa: FBI a y r e e s w i t h this recommendation and recognizes
t h a t significant changes and progress in the MSP r e q ~ i r et h e
establishment of more specific, quantifiably measurable and
attainable goals and objectives.
While FBI recognizes t h a t the goals and o ~ j e c t i v e sestablished
f o r the MSP (via EC d a t e d 0 8 / 1 9 / 2 0 0 5 ) did not i n c l u d e
quantifiable measures, i t s h o u l d be noted t h a t t h e MSP was a new
program and no p r e v i o u s goals and o b j e c t i v e s had been
established. Furthermore, t h e MSP d i d n o i have responsibility
for managing the MLA P r o g r a m at Ltie time Lhe initial objectives
uere e s t a b l i s h e d . The f i r s t objective of the MSP was to
c o o r d i n a t e with tY,e NJTTF to assume responsibility f o r t h e MLA
Progran.
It is also worth noting t h a t the NSMS and all of the s u p p o r t i n g
p l a n s xere released i n t h e f i n a l q u a r t e r o f 2005, a f t e r the date
cn w h i c h t h e s e objectives were established. F i n a l directives
under the NSMS have not been established, even a s of the d a t e of
t h i s rtsponse. Under these circumstances, it i s difficult t o
q u a n t . i f y t h e amount of t r a i n i n g and/or reference materials
required t o t r a i n MLAs i n t h e f i e l d .
Despite the lack of specific, quantifiahlg measurable objectives
a t the inception of t h e proqram, t h e MSP accomplished several of
the s t a t e d objectives, i n c l u d i n g t h f~o l l o w i n g :
              T h e MSP assumed responsibility f o r managing the MILA
              Proqtam on 1 0 / 0 4 / 2 0 0 5 ;
rn            T r a i n i n g a n d reference materials to assist the MLAs
              have beer1 distributed v i a e-mail, posted to the
              FBIts Intranet, and will be presented at the 2006
              Maritime L i a i s o n Agent T r a i n i n g Conference scheduled
              to t a k e p l a c e 04/03-07/2006;
              The MSP established a web sire on the FBI's I n t r a n e t
              where current infurmation including, bur n o t limired
              to, maritime d i r e c t i v e s , statutes and intelligence
              i s maintained;




                                             - 90 -
                          REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED


Mr. Glenn A. Fine
             'l'he MSP continually i d e n t i f i e s ,
                                                       analyzes and
             hisseminates information psrtaininq to maritime
             t h r e a t s , vulnerabilities and s a f e t y / s e c u r i t y issues;
.            The MSP continually coordinates with other proqrams
             within the F B I to e n h a n c e situational awareness for
             the MSP, other p r o g r a m s , FBlHQ and the field;

             The NSP h a s already begun to review and t r a c k
             s u s p i c i o u s a c t i v i t y r e p o r t s to d e t e r m i n e if there
             a r e any t r e n d s which could i n d i c a t e t e r r o r i s t
             activity and has disseminated information.zo the
             field i n thls regara; and
         The MSP i s a c t i v e l y engaged in liaison w i C t : other
         government agencies a s well as the private sector.
         T n i - s e f f o r t and the f a c t t h a t the MSP serves as a
         p r i m a r y point of contact and a c o o r d i n a t i o n center
         within the FBI f o r maritime issues h a s c n h a n c e d the
         FBI's liaison w i t h these grou?s.
Reco~mendation#7
OIG Ilec-nation:     E n s u r e t h a t t h e Maritime S e c u r i t y Program's
objectives include developing human i n t e l l - i g e n c e .
mf     Re8ponae: FBI agrees w i t h t h i s recommendation and a s s e r t s
t h a t the MSP and t h e N J T T F have already provided s u c h g i ~ i d a n c eto
the M I A s .

As stated above, a t t h e time the MSP's qoals and objectives were
e s t a b l i - s h e d , t h e MSP did not have responsibility for managing t h e
YLA Program. Even so, t h e MSP established various objectives f o r
che f i e l d .          O n e of these objectives was to "ensure effective
Liaison between the M I A and various l a w e n f o r c e m e n t a g e n c i e s ,
part and s h i p p i n q officials in respect t o c o u n t e r t e r r o r i s m
preparedness."                 In the y u a l s and objectives EC, t h e MSP
identified five core competencies which included the
establishment of a human intelligence b a s e .

P r i o r to t h e existcncc of thc M S P ,          i n an EC to a l l Field Offices
dated 0 7 / 1 2 / 2 0 0 4 , the N J T T F s t a t e d , "The goal of t h e MLA Program
is to e n h a n c e t h e maritime environment t h r o u g h increased
i n t e r a c t - i o n betweer. MLA members, p r i v a t e industry, s t a t e and
l o c a l port. authorities, to include law enforcement drld u l h e r
federal ageccies w i t h maritime responsibilities. T h e s e
enhancements will r e s u l t from the establishment o f close working
r e l a t i o n s h i p s between t h e MLAs ar.d concerned entities w i t h i n t h e
maritime fie1d..." T h e               906.9 Q ~ I to provide additional g u i d a n c e
and an e x t e n s i v e list o f recommecded liaison c o n t a c t s , i n c l u d i n g
participation in t h e l o c a l AMSC.




                                              - 91 -
                          REDACTED AND UNCLASSlFIED
                       REDACTED AND UNCLASSIFIED


Mr. Glenn A. Fine
In addition          to thcsc specific recommendations, every F B I SA,
including t h o s e designated as MLAs, are evaluated on specific
c r i t i c a l elements. One of the c o r e c r i t i c a l elements f o r a l l FBI
S A s is ?.he development 0 6 an intelligence base, which i n c l u d e s
source development. T h i s process encompasses identifying,
i n i t i a t i n g and developing relationships w i t h i n d i v i d u a l s or
arqanizations t h a t may provide information o r assistance in
investigations and assignments. T h e r e f o r e , FBI believes t h e need
f o r t h e FBI to develop r e l a t i o n s h i p s with people who can inform
the FBI a b o u t maritime operations has beer1 t h o r o u g h l y addressed.
T h e MSP also plans t o a d d r e s s liaison and the development o f a
human intelliqence base d u r i n g the 2 0 0 6 Maritime L i a i s o n Agent
T r a i 3 i n g Conference which is s c h e d u l e d f o r 04/fl3-07/2006. Ln
addition, the M S P will iEclude s p e c i f i c r e c o m e n d a z i o n s to the
NLAs in the objectives w k . i c h will be established for FY 2007.




OIG Rec-sdation:             Ensure t h a t the FBI's MOTR operations p;an
examines h i g h risk s c e n a r i o s , determines t h e required response
time, and e v a l u a t e s how FBI resources would address t h e
scenarios.
FBI Ilobpon81:           The FBI's maritime operational response p l a n takes
into account various h i q h - r i s k scenarios to i n c l u d e the
criminal/terrorist use of b i o l a g i c a l , chemical or radiological
WID, as well as Improvised Explosive Devices [TED$)and Improvised
Nuclear Devices ( I N C s ) . Other high-risk scenarios i n c l ~ d ea
large number of hostages on a maritime platform and/or t h e
involvemect of sophisticated criminal/terrorist adversaries. The
TSB's t a c t i c a l response to maritime t h r e a t s mirrors t h e response
to ar.y o t k e r t a c t i c a l response. - T h a t is, the F B I t a c t i c a l
r e s p o n 3 e i s a t i e r e d approach which recognizes t h a t l o c a l field
o f f i c e s w i l l respond as necessary (Tier I ) , with regional
respGnse ( T i e r 2 ) added a s the evaluation of t h e situation may
d i c t a t e . N a t i o n a l response, a s required ( T i e r 31, w i l l i n v o l v e
t h e ceployment of the Hostaqe Rescue Team ( H R T ) , a s well as o t h e r
FBT SWAT teams and p o s s i b l y the HDRU and the Laboratory's HMRU,




O f O Rmcommendation: Establish a requirement f o r j o i n t FBI/Coast
Guard exercises in f i e l d o f f i . c e s assessed a s having high-risk
seaports .




                         REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCLASSIFIED


Mr. Glenn A. Fine

FBI Response: CIRG will require the f o u r t e e n ( 1 4 ) field o f f i c e s
that have been given enhanced tactical maritime training to m a k e
o v e r t u r e s to t h e USCG to conduct j o i n t e x e r c i s e s on a n a n n u a l
basis. It s h o u l d be n o t e d that the F B I is not in a position to
requlre USCG p a r t i c i p a t i o n , however, t h e F B I will extend t h e
i n v i t a t i o n to the USCG as well a s to o t h e r appropriate e n t i t i e s .

R~C-nda       tion # 10

OIG Recammendation:     Resolve potential r o l e and i n c i d e n t command
conflicts in the event of a maritime terrorist incident t h r o u g h
joint exercises a n d , if necessary, a revised and broadened MOU
with the C o a s t Guard.
FBI Response: F R I concurs in stating that t h i s is currently
b e i n g a d d r e s s e d through t h e revision of t h e f i n a l i n t e r a g e n c y
MOTH P l a n .       It may be premature to determine if a revised
memorandum of understanding (MOU) with the USCG w i l l be necessary
until the f i n a l MOTR P l a n h a s been approved and v e t t e d through
exercises and/or operations. Again, the FBI i s n o t i n a position
to require t h e USCG to enter into a renewed MOU.


OIG Recommendation: Prepare a f t e r - a c t i o n reports after a l l
maritime-related exercises and u s e t h e reports to identify and
disseminate l e s s o n s learned and besr p r a c t i c e s .
FBI Resgonae:              T h i s is b e i n g addressed in a separate j o i n t
initiative w i t h i n t h e F B I .          It is anticipated a n A f t e r Action
Report ( M R ) template will be developed t h a t applies to all
c r i t i - c a l incidents, s p e c i a l events a n d exercises. CIRG's C r i s i s
Management U n i t (CMU) is responsible f o r program o v e r s i g h t f o r
t h e p r o d u c t i o n of AARs per t h e Manual of Investigative a n d
O p e r a t i o n a l Guidelines (MIOGI , P a r t 2, s e c t i o n 30-1.8 ( 11 [ a ) ,
 (b) and ( c ) which specifically s e t s out t h e requiremenrs for
AARs .


OIG Reccmngndation: Ensure that a l l f i e l d o f f i c e s submit
c r i t i c a l i n c i d e n t r e p o r t s to t h e CIRG by January 15 each y e a r ;
r e q u i r e t h e F B I ' s Maritime Security Program, in consultation w i t h
t h e C I R G , to use the r e p o r t s to conduct maritime-specific reviews
of t h e F B I ' s crisis management p o l i c i e s and practices - including
any requirements for field office crisis management p l a n s -- and
to disseminate maritime-related l e s s o n s lcarned and best
practices.




                         REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCIASSIFIED


Mr. Glenn A. Fine
FBI Response: C I R G ' s CMU e n s u r e s adherence to the MIOG's ~ d r t2,
s e c r i o n 30-1.8 w h i c h requires t h a t f i e l d o f f i c e s submit c r i t i c a l
i n c i d e n t r e p o r t s :o C I R G by J a n u a ~ y15tb, of e a c h year. CTD's MSP
w i l l provide i n f u r m a t i o n concerning maritime r e l a b e d l e s s o n s
learned and best practices.

Recommendation #13
O I G RPcbmm~ndation: Assess the t h r e a t and r i s k of maritime
t e r r o r s s m compared to o t h e r t e r r o r i s t threats and e n s u r e the
N a t i o n a l T h r e a t Assessment r a n k s the various modes of a t t a c k and
targets.

FBI Rerponae: FBI will ensure t h a t intelligence gaps are
identified and a c t i o n is i n i t i a t e d to resolve any deficiencies.

Recommendation #14

OIG Rec-ndation:                 E n s u r e t h e amcunt of FBI resources dedicated
to maritime terrorism i u based on rhe e x t e n t of t h e maritime
t h r e a t in r e l a t i o n to o t h e r t h r e a t s .

W I Response:       FBI aqrees with t h i s recom~endar,ion, FBI will
e n s u r e that adequate resources a r e allocated to address p r i o r i t y
threats.


OfG Recommendation: Monitor the progress of o p e r a t i n g divisiocs
and t i e l d offices in a n s w e r i n g intelligence collection
requirements pertaining t o seaports and maritime terrorism.
F8S Reaponme; T h e Directorate of Intelligence w i l l provide a
response to this recommendation.


OfG Recommndation:       Focus i n t e l l i g e n c e reporting to more
comprehensively a d d r e s s potential maritime-related terrorist
t a r g e t s a n d methods.
FBI Response:  T h e Directorate of I n t e l 1 i g e n c e will provide a
response to this recommendation.


OIG Recomarendation:        Name a u n i t w i t h i n the Counterterrorism
C i v i s i o n to monitor the volume a n d substance of all F B I
maritimc-related         intelligence.




                          REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED


Mr. Glenn A. Fine

FBI Response:    FBI Counterterrorism D i v i s i o n will ensure that
Maritime related intelligence a s well a s investigations a r e
monitored a n d properly managed.


OIG Rmc-nation:                  Consider establishing a requirement for
regular field office intelliqence bulletins to summarize the
field o f f i c e ' s s u s p i c i o u s incident reporting and, if such a
requirement is adopted, e s t a b l i s h standardized f r e q u e n c y ,
content, and distribution requirements.

E'BI Response: T h e Directorate of Intelligence w i l l p r o v i d e a
response to t h i s recommendation.
          The FBI h a s prepared t h e appropriate responses to the
recommendations found i n y o u r report. T h e responses have
undergone a classification review ( E n c l o s u r e 1) a n d Sensitivity
Review (Enclosure 2 1     .
                   The responses were coordinated through the FBI's
Inspection D i v i s i o n .   P l e a s e contact. Shjrlene Savoy of t h e
I n s p e c t i o n Division should you have a n y questions. Ms. Savoy can
be reached at (202 324-1833.

          I want t o t h a n k you a g a i n for your efforts i n p r o d u c i n g
t h i s report, a n d
                   I welcome t h e opportunity to discuss i n detall
the progress t h e FBI continues to make in t h i s area.

          Please c o n t a c t me should you have a n y q u e s t i o n s
regarding t h i s m a t t e r .
                                              Sincerely y o u r s ,


                                              ~ i l l i eT. Hulon
                                              Assistant D i r e c t o r
                                              Counterterrorism Division




                                       - 95   -

                         REDACTED AN0 UNCLASSIFIED
                              REDACTED AND UNCLASSIFIED


                                              U.S. Dtprrtmrnt or Juaticc


                                              PFdcnl Bureau of Inveolipion



In RLply. P l u v Rcfct co
File No.

                                              March 23, 2006

 The Honorable Glenn A . F i n e
 Inspector General
 Office of t h e Inspector General
 U n i t e d States Department of J u s t i c e
 Room 4322
 950 Pennsylvania Avenue, Northwest
 Washington, D . C .    20530
 Dear Mr. Fine:
           I would like to thank you f o r providing the Federal
 Bureau of Investigation ( F B I ) the opportunity t o respond to +
 your report entitled, "The FBI's Efforts to Prevent and
 Respond to Maritime Terrorism."
                I have reviewed the recommendations made in the
 r e p o r t which pertain to intelligence collection and production
 issues. Our responses a r e s e t forth below.
 15. Monitor the progreoe of operating divisions and field
 o f f i c e s in answering intelligence cbllaction requir-ta
 pertaining to seaporte and maritime terrorism.
      The FBI agrees with this recornendation, and notes that
 such monitoring is part of t h e normal business process of our
 Intelligence Program. It is a shared responsibility of bath
 our Headquarters and F i e l d Office executive managemant.
        The Directorate of I n t e l l i g e n c e (D1)has partnered with
 t h e Information Technology Operations Division to enhance t h e .
 FBI's Intelligence Information Report Dissemination System
  (FIDS) d u r i n g F i s c a l Year ( F Y ) 2006 and FY 2007 t o incorporate
 a capability to produce management reports to evaluate t h e
 quality of FBI raw i n t e l l i g e n c e reporting. Inherent in t h e s e
 expected enhancements is the ability t o identify reporting
 that is responsive to specific intelligence requirements.

        we recently worked with t h e Inspection Division to revise
a l l appropriate inspection review documents, which we believe.
w i l l strengthen the inspection review of c r i t i c a l intelligence
processes, including the collection and production of
intelligence a g a i n s t published requirements.




                             REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


16. Focus i n t e l l i g e n c e reporting to more eompxehens5vely
address potential maritime-related terrorist targets and
me tho& .
     The FBI agrees with this recommendation, and notes t h a t
actions r e l a t e d to it were initiated prior to t h e OIG inquiry.
     The F B I h a s established maritime and seaport intelligence
requirements w i t h i n its International Terrorism Standing
Intelligence Requirements Set and o t h e r related requirements
sets. The FBI has integrated r e l a t e d requirements received
from t h e O f f i c e of Naval Intelligence and the U . S . Northern
Command and will c o n t i n u e to incorporate maritime and seaport
requirements issued by t h e intelligence and homeland security
communities t h a t are w i t h i n t h e FBI's capability and authority
to collect.

       We n o t e , however, t h e intelligence reporting is tied to
t h e collection of intelligence that merits r e p o r t i n g when
viewed a g a i n s t requirements. T h e FBI, l i k e other members of
the U . S . Intelligence Community, t a k e s i t s principal guidance
from t h e p r i o r i t y intelligence requirements set f o r t h by the
Director o f National Intelligence in the National Intelligence
Priorities Framework. While this recornendation focuses on
reporting, it is important to understand that collection
capabilities against requirements form t h e basis for
reporting.
          We were informed that this recommendation was also
i n t e n d e d to address the production of 'analytic r e p o r t s which
adequately considered maritime-related t e r r o r i s t methods of
attack, e . g . weapons of mass destructionr when t h a t reporting
was found in Intelligence Information Reports. This issue
will be addressed in the weekly I n t e l l i g e n c e P r o d u c t i o n Board
discussions between s e n i o r i n t e l l i g e n c e managers.
18. Consider e s t a b l i s h i n g a xequir-at       for regular f i e l d
o f f i c e intelligence b u l l e t i n 8 to s-riee
                                                   the fiald office's
suspicious incident reporting and, 5f much a rmquixement is
adopted, e s t a b l i s h standazdizad frequency, content, and
distribution requiraments.
        The FBI agrees to consider this recommendation, and n o t e s
t h a t in September 2005, t h e F B I issued p o l i c y and procedural .
guidance to i t s F i e l d Offices w i t h r e s p e c t to t h e pxoduction
of Intelligence B u l l e t i n s . This guidance addressed content,
frequency af p r o d u c t i o n , and customer distribution.




                                     - 97 -

                     REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


     The CTD Threat Monitoring Unit c u r r e n t l y produces quarterly
summaries of suspicious incident reports originating from a l l 5 6
field o f f i c e t e r r i t o r i e s using the GUARDIAN system. This unit
plans to s t a r t producing monthly r e p o r t s , by regions of t h e
c o u n t r y , which provide material that c a n l o g i c a l l y be incorporated
into periodic Intelligence Bulletins disseminated by F i e l d O f f i c e s .
     M y staff is available f o r any additional follow-up to t h e
recommendations and issues discussed herein.



                                       Sincerely,



                                   @
                                   ya/l A s s *   ant   D rector

                                             ectorat     of Intelligence




                                    - 98 -
                     REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

                                                            APPENDIX V1

 OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACT1ONS NECESSARY TO CLOSE REPORT
       The OIG provided a draft of this audit report to the FBI on
March 6, 2006, for its review and comment. The FBI provided written
responses to the draft report, which are included as Appendix 5 of this
final repart. The response from the Counterterrorism Division, dated
March 17, 2006, addresses 15 of the report's recommendations. The
response from the Directorate of Intelligence, dated March 23, 2006,
addresses the remaining 3 recommendations. The FBI agreed with the
18 recommendations in the audit report and provided both general
comments and technical comments. We incorporated the technical
comments into the report as appropriate.

FBI's General Comments

      I n its response, the   FBI noted that it had created its Maritime
Security Program without additional funding, that resource availability
influences its participation in maritime exercises, and that it is working
with the Coast Guard to resolve potential coordination issues in
advance of any terrorist threat or incident in the maritime domain. I n
addition, the FBI provided updates on the activities of the Maritime
Security Program in the areas of suspicious incident and threat
reporting, training, information sharing, and implementation of the
National Strategy for Maritime Security.

Status of Recommendations

 1. Resolved. The FBI agreed with the recommendation and
    described three initiatives intended to ensure that the guidance
    provided t o Maritime Liaison Agents is consistent with the actual
    role of MIAs. This recommendation can be closed when we receive
    documentation that shows the guidance provided to MLAs is
    consistent with their actual role.

 2. Resolved. The FBI agreed with the recommendation and reported
    that it will ensure that resources are assigned, or made available,
    to address the assessed threat and risk of a terrorist attack. This
    recommendation can be closed when we receive documentation



                     REDACTED AND UNCIASSIFIED
                   REDACTED AND UNCLASSIFIED

  that shows the FBI has assigned its MLAs based on an assessment
  of the threat and risk of a terrorist attack to critical seaports.

3. Resolved. The FBI agreed with the recommendation and
   described two steps the Maritime Security Program has taken to
   address the recommendation. This recommendation can be closed
  when we receive documentation that shows the FBI has
  established a maritime case classification under the general
  Counterterrorism Preparedness classification.

4. Resolved. The FBI agreed with the recommendation and stated
   that the FBI would ensure that it devotes adequate resources to
   Area Maritime Security Committees. This recommendation can be
   closed when we receive documentation that shows the FBI has
   named a t least one M U to each AMSC.

5. Resolved. The FBI agreed with the recommendation and stated
   that the MSP updates the M U list regularly. This recommendation
   can be closed when we receive documentation that shows the FBI
   has required its field offices to immediately notify the MSP of any
   M LA appointments or reassignments.

6. Resolved. The FBI agreed with the recommendation and stated
  that it recognized that significant changes to the MSP require the
  program to have more specific and quantifiable goals and
  objectives. This recommendation can be closed when we receive
  documentation that shows the FBI has established measurable
  objectives for the MSP.

7. Resolved. The FBI agreed with the recommendation and stated
   that it believed that the MSP and the National Joint Terrorism Task
   Force had provided guidance to MLAs on developing human
   intelligence. We agree that the electronic communication outlining
   the MSP's goals and objectives identifies five core competencies of
   the FBI, including the ability to establish a human intelligence
   base, and states that the MSP will be built upon those
   competencies. However, the MSP's goals and objectives do not
    make it clear how this competency will be used. The intent of our
   recommendation is to ensure that that MSP build a base of
   informants with knowledge about port operations that cannot be
   obtained through increased interaction with law enforcement,
    other federal agencies, port authorities, and the private sector.



                   REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

   This recommendation can be closed when we receive
   documentation showing that the MSPfs objectives include
   developing human intelligence.

8. Resolved. This recommendation is resolved based on the FBI
   reporting that its maritime operational response plan examines
   various high-risk scenarios and evaluates how FBI resources would
   address the scenarios. This recommendation can be closed when
   we receive documentation that shows that the FBI's Maritime
   Operational Threat Response plan examines high-risk scenarios,
   determines the required response times, and evaluates how FBI
   resources would address the scenarios.

9. Resolved. This recommendation is resolved based on the FBI
   reporting that the Critical Incident Response Group will require the
   14 field offices with enhanced maritime SWAT teams to annually
   invite the Coast Guard to participate in joint exercises. This
   recommendation can be closed when we receive documentation
   that shows that the FBI has established a requirement for joint
   FBI-Coast Guard exercises in field offices assess as having high-
   risk seaports.

10. Resolved. This recommendation is resolved based on the FBI
    reporting that is actively attempting to resolve potential role and
    incident command issues that may occur with the Coast Guard in
    the event of a maritime terrorist incident. This recommendation
    can be closed when we receive documentation that shows that the
    FBI has resolved potential role and incident command conflicts in
    the event of a maritime terrorist incident through joint exercises
    and, if necessary, a revised and broadened memorandum of
    understanding with the Coast Guard.

11. Resolved. This recommendation is resolved based on the FBI
    reporting that a current initiative will develop a template for after-
    action reports that will apply to all critical incidents, special events
    and exercises. This recommendation can be closed when we
    receive documentation that shows that the FBI prepares after-
    action reports after all maritime-related exercises and uses the
    reports t o identify and disseminate lessons learned and best
    practices.




                     REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

12. Resolved. This recommendation is resolved based on the FBI
    stating that the Crisis Management Unit will ensure that all field
   offices comply with annual critical incident reporting requirements
   and that the MSP will provide the CMU with maritime-related
   lessons learned and best practices. This recommendation can be
   closed when we receive documentation that shows that the FBI:
   (1) has ensured that all field offices submit critical incident reports
   to the Critical Incident Response Group by January 15 each year,
   and (2) requires its MSP, in consultation with CIRG, to use t h e
   reports to conduct maritime-specific reviews of the FBI's crisis
   management policies and practices and to disseminate maritime-
   related lessons learned and best practices.

13. Resolved. This recommendation is resolved based on the FBI
    reporting that it will ensure that intelligence gaps are identified
    and action is taken to resolve any deficiencies. This
    recommendation can be closed when we receive documentation
    that shows that the FBI has assessed the threat and risk of
    maritime terrorism compared to other terrorist threats and ensures
    the National Threat Assessment ranks the various modes of attack
    and targets.

14.Resolved. The FBI agreed with the recommendation and stated
   that it would ensure that adequate resources are allocated to
   address priority threats. This recommendation can be closed when
   we receive documentation that shows the FBI has ensured the
   amount of resources dedicated to maritime terrorism is based on
   the extent of the maritime threat in relation to other threats.

15. Resolved. The FBI agreed with the recommendation and
    described two initiatives intended to ensure that its intelligence
    reporting is responsive to its intelligence requirements. This
    recommendation can be closed when we receive documentation
    that shows the FBI monitors the progress of operating divisions
    and field offices in answering intelligence collection requirements
    pertaining to seaports and maritime terrorism.

16. Resolved. The FBI agreed with the recommendation and reported
    that its Intelligence Production Board, made up of senior
    intelligence managers, would ensure that the FBI's analytic
    products adequately address maritime-related terrorist methods.
    The Directorate of Intelligence noted that the ability to collect



                     REDACTED AND UNCLASSIFIED
                   REDACTED AND UNCLASSIFIED

   intelligence against a specific requirement is based on the
   availability and capability of sources and terrorist activities, This
   recommendation can be closed when we receive documentation
   that shows the FBI is focusing its intelligence reporting to more
   comprehensively address potential maritime-related terrorist
   targets and methods.

17. Resolved. This recommendation is resolved based on the FBI's
    reporting that the Counterterrorism Division will ensure that
    maritime-related intelligence is monitored and proper!y managed.
   This recommendation can be closed when receive documentation
    showing the FBI has named a unit within the Counterterrorism
    Division to monitor the volume and substance of all FBI maritime-
    related intelligence.

18.Resolved. The FBI agreed to consider the recommendation and
   noted that in September 2005 it had issued guidance to its field
   offices on the content, frequency, and dissemination of intelligence
   bulletins. This recommendation can be closed when we receive
   documentation indicating that the FBI considered establishing a
   requirement for regular field office intelligence bulletins to
   summarize the field office's suspicious incident reporting. I such a
   requirement is adopted, closure of the recommendation will
   require documentation showing that the FBI established
   standardized frequency, content, and distribution requirements.




                                 -   103 -

                    REDACTED AND UNCLASSIFlED
